<html>
<title> - LUNAR EXPLORATION</title>
<body><pre>[Senate Hearing 108-998]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 108-998
 
                           LUNAR EXPLORATION

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON SCIENCE, TECHNOLOGY,
                               AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 6, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and  Transportation
    
    
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      






                     U.S. GOVERNMENT PUBLISHING OFFICE
                  
 20-197 PDF                  WASHINGTON : 2016       
________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                 


    
                                   


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 ------                                

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                    SAM BROWNBACK, Kansas, Chairman
TED STEVENS, Alaska                  JOHN B. BREAUX, Louisiana, Ranking
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               RON WYDEN, Oregon
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     FRANK R. LAUTENBERG, New Jersey
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 6, 2003.................................     1
Statement of Senator Brownback...................................     1
    Testimony from the TransOrbital Group........................    35

                               Witnesses

Angel, Ph.D., J. Roger P., Director, Center for Astronomical 
  Adaptive Optics, Steward Observatory, University of Arizona....    11
    Prepared statement...........................................    14
Criswell, Dr. David R., Director, Institute for Space Systems 
  Operations, University of Houston and University of Houston-
  Clear Lake.....................................................    16
    Prepared statement...........................................    18
Schmitt, Hon. Harrison H., Chairman, Interlune-Intermars 
  Initiative, Inc................................................     2
    Prepared statement...........................................     5
Spudis, Dr. Paul D., Planetary Scientist, Lunar and Planetary 
  Institute......................................................    23
    Prepared statement...........................................    25
    
    

                           LUNAR EXPLORATION

                              ----------                              


                       THURSDAY, NOVEMBER 6, 2003

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. The hearing will come to order. 
Appreciate everybody being here today.
    These are the building blocks that we need to move Congress 
forward on what's our vision and how we're going to move 
forward in space exploration. We've been holding a series of 
hearings on this topic, one a week or two ago about the 
International Space Station. This hearing is on lunar space 
exploration. We will continue to hold hearings in the future 
about where the United States should be going in space.
    We are a space-faring nation, we will be in the future. We 
need to do it in both manned and unmanned missions. But right 
now we're a bit lost in space and not sure of the vision, where 
we're going, and we need to reestablish what that vision is and 
what it's going to be. And through these hearings, I hope to 
educate myself, educate some people in Congress, as well. What 
are the options, what are the costs, what are the risks, and 
where would we go? I think it's of vital importance that we do 
this for our future generations and for ourselves.
    There are young men and women in Pittsburg, Kansas, that 
are yearning to dream, and unless we put a grand vision in 
front of them, I fear for their destinies. It's very, very 
important for us that we have a vision, that we move forward 
aggressively, help the young people in our country, and help us 
all. We need to move forward with a vision that's exciting, 
that's mobilizing, that stirs the soul. And I think we are on 
that task, to see where and how we can get that done.
    The country is at a critical juncture. We must decide, as a 
nation, what the vision for space exploration should be, which 
is why we've called this hearing today. I want to examine all 
options before us--missions to the Moon, missions to Mars, the 
International Space Station, and the Space Shuttle. All of 
these options are presently before us. What we need to do now 
is evaluate our options and embrace a vision.
    I've made it known over the past several months that I want 
this Subcommittee to explore a new vision for our space agency. 
To that end, we're here today to hear testimony from our 
distinguished panel on lunar exploration and what value it may 
serve our Nation to venture back for military, commercial, and 
discovery purposes. I hope our witnesses will share with us 
their ideas for a national vision.
    I don't know for sure what our national vision should be, 
but the best way I've heard it stated so far is that we must 
dominate the Earth/Moon/Mars orbit for commercial, exploration, 
and military purposes. I hope that today's hearing will help 
bring focus to that idea.
    But in the 1960s, we had the goal of getting a man on the 
Moon and returning him safely to Earth, and that served as an 
inspiration to so many across the Nation. Today, I'm afraid 
that America is lacking a similar vision. I'd like to see the 
U.S. embrace the idea of dominating the Earth, Moon, and Mars 
orbit. I think this is a goal that Americans can grasp onto. It 
gives industry a destination on which to focus, it gives 
government a goal to obtain, and it gives youth the hope of 
someday reaching Mars and beyond.
    I'm honored to have such a distinguished panel of experts 
here today, and I look forward to the testimony regarding their 
thoughts and visions for lunar exploration.
    I'd like to welcome back former Senator Jack Schmitt. Not 
only has Senator Schmitt served this Nation in Congress, he's 
also served our Nation as one of the last astronauts to walk on 
the Moon, during Apollo 17. He's Chairman of the Interlunar-
Intermars Initiative, Incorporated.
    Joining him at the table is Dr. David Criswell, Director of 
the Institute for Space System Operations, in Houston, Texas, 
along with Dr. Roger Angel, Director of the Center for 
Astronomical Adaptive Optics, at the University of Arizona, and 
Dr. Paul Spudis, visiting scientist, with the Lunar and 
Planetary Institute, in Houston, Texas.
    All these gentlemen are distinguished in their 
accomplishments in the space field, and I look forward to hear 
their testimony this afternoon.
    And, with that, Dr. Schmitt, Senator Schmitt, let's start 
with your testimony.

    STATEMENT HON. HARRISON H. SCHMITT, CHAIRMAN, INTERLUNE-
                   INTERMARS INITIATIVE, INC.

    Dr. Schmitt. Well, thank you, Mr. Chairman, not only for 
your remarks, but for the invitation to participate. It's good 
to be back in these familiar surroundings.
    A return to Moon to stay, when it occurs, would be at least 
comparable to the first permanent settlement of America, if not 
to the movement of our species out of Africa, about 150,000 
years ago. A return by Americans to the Moon at least 40 years 
after the end of the Apollo 17 mission--and I say 40 years, 
even though it ended only 30 years ago; it's going to take us 
at least 10 years to get started again, I'm afraid--would 
represent a sustainable commitment to this endeavor. And I mean 
and emphasize ``sustainable.''
    I must admit to being skeptical that the U.S. Government 
can be counted on to make such a sustained commitment, absent 
unanticipated circumstances comparable to those of the late 
1950s and the early 1960s. Because of this skepticism, I have 
spent much of the last decade exploring what it would take for 
private investors to make such a commitment. At least it is 
clear that investors will stick with a project if it's 
presented to them with a credible business plan, credible 
execution, and a rate of return commensurate with the risk to 
invested capital. That, I can predict. I cannot predict what 
the government's going to do.
    My colleagues at the Fusion Technology Institute of the 
University of Wisconsin-Madison, and the Interlune-Intermars 
Initiative, Inc., believe that such a commercially viable 
project exists in lunar helium-3, helium-3 to be used as a fuel 
for fusion electric power plants on Earth.
    As background, global demand and need for energy will 
likely, in my estimation, increase by at least a factor of 
eight by the midpoint of the 21st century. This rapid rise from 
today will be due to a combination of population increase, 
roughly a factor of two, new energy-intensive technologies, 
aspirations for improved standards of living, and lower birth 
rates in less developed countries, and the need to mitigate the 
adverse consequences of climate warming or climate cooling, 
whichever way it may go. It is going to go one of those two 
directions.
    Helium has two stabilized isotopes, helium-4, familiar to 
all who have received helium-filled balloons, and the even 
lighter isotope, but rarer isotope, helium-3. Lunar helium-3, 
arriving at the Moon as part of a solar wind, is embedded as a 
trace non-radioactive isotope in lunar soils. It represents one 
potential energy source, one of many, to meet this country's 
and this century's, rapidly escalating demand.
    There is a resource base of helium-3 of about 10,000 metric 
tons just in the upper three meters of the titanium-rich soils 
of Mare Tranquillitatis. This, of course, was a region where 
Neil Armstrong landed in 1969. By the way, the current 
electrical energy use in the United States is about 40 tonnes 
of helium-3 equivalent energy. That's the annual use. It's 
about 40 tonnes equivalence.
    The energy-equivalent value of helium-3 delivered to an 
operating fusion plant on Earth, if that were possible today, 
would be about $4 billion per tonne, relative to today's price 
of crude oil. These numbers illustrate the magnitude of the 
business opportunity for helium-3 fusion power, and why an old 
economic geologist, like myself, might get interested in the 
project.
    Past technical activities on Earth and in deep space 
provide a strong base for initiating this enterprise. Also over 
the last decade, there has been historic progress in the 
development of inertial electrostatic confinement--that is IEC 
fusion--at the University of Wisconsin-Madison. Progress there 
includes the production of approximately one milowatt of 
steady-state power from the fusion of helium-3 and the heavy 
isotope of hydrogen deuterium.
    Steady progress in IEC research, as well as basic physics, 
argue strongly that the IEC approach to fusion power has 
significantly more commercial viability than other fusion 
technologies. It will have inherently lower capital costs, 
higher energy conversion efficiency, a range of power from a 
few hundred megawatts upward, and little or no associated 
radioactivity or radioactive waste.
    It should be noted, however, that IEC research has received 
no significant support as an alternative to Tokamak-based 
fusion from the Department of Energy. And, in fairness to DOE, 
that may be because they don't think we're ever going to go to 
our most abundant available supply, and that is the Moon.
    On the question of international law relative to outer 
space, specifically the Outer Space Treaty of 1967, the only 
really operative treaty today, that treaty is permissive 
relative to property license and regulated commercial 
endeavors. Under the 1967 treaty, lunar resources can be 
extracted and owned, but national sovereignty cannot be 
asserted over the mining area or any other part of a celestial 
body.
    The cost of capital for launch and basic operations will be 
carried by the helium-3 business enterprise. Thus, technology 
and facilities required for success of a lunar commercial 
enterprise involving helium-3, particularly heavy-lift launch 
and fusion technologies, will enable the conduct and reduce the 
cost of many other space activities, in addition to science, on 
and from the Moon. These other activities include exploration 
and settlement of Mars, asteroid interception and diversion, 
and various national security initiatives.
    Again, Mr. Chairman, the lowest cost way to get to your aim 
of the Mars/Moon orbit around the Sun is by way of the Moon.
    It is doubtful that the United States will initiate or 
sustain a return of humans to the Moon, absent a comparable set 
of circumstances as those facing the Congress and Presidents 
Eisenhower, Kennedy, and Johnson in the late 1950s and through 
the 1960s.
    If government were to lead a return to deep space, then 
NASA today is probably not the agency to undertake a 
significant new program to return humans to deep space. NASA 
today lacks the critical mass of the youthful energy and 
imagination required for work in deep space. It also has become 
too bureaucratic and too risk-averse. Either a new agency would 
need to be created to implement such a program or NASA would 
need to be totally restructured, using the lessons of what has 
worked and what has not worked since it was created 45 years 
ago.
    First, of particular importance would be the need for, most 
of the agency to be made up of engineers and technicians in 
their 20s, and managers in their 30s. Second, the reinstitution 
of design/engineering activities, in parallel with those of 
contractors. Third, the streamlining of management 
responsibility. The existing NASA would also need to undergo a 
major restructuring of its program management, risk management, 
and financial management structures. Total restructuring would 
be necessary to recreate the competence and discipline 
necessary to operate successfully in the much higher-risk and 
more complex deep-space environment relative to that in near-
Earth orbit. Most important for a new NASA or a new agency 
would be a guarantee of sustained political--that is, 
financial--commitment to see the job through and to not turn 
back once a deep-space operational capability exists or 
accidents happen.
    A sustained commitment includes not underfunding the 
effort. Underfunding since the early 1970s, has really been at 
the base of many of the problems that I have described. That is 
why I've been looking to a more predictable commitment from 
business investors.
    Attaining a level of sustained operations for a core 
business in fusion power and lunar resources requires about 15 
years and about $15 billion in private investment capital, as 
well as the successful interim marketing and profitable sales 
related to a variety of applied fusion technologies.
    The time required, from startup to the deliver of the first 
hundred kilograms--that is, a year's supply--to the first 
operating thousand-megawatt fusion power plant on Earth, or its 
equivalent, will be a function of the rate at which capital is 
available, but probably no less than 10 years, due to the 
complexity of the endeavor.
    Well, Mr. Chairman, a business and investor-based approach 
to return to the Moon to stay represents a clear alternative, 
in my mind at least, to initiatives by the U.S. Government or a 
coalition of other countries. A business-investor approach 
supported by the potential of lunar helium-3 fusion power and 
derivative technologies and resources offers the greatest 
likelihood of a predictable and sustained commitment to a 
return to deep space.
    Thank you, Mr. Chairman. I'd be happy to take any questions 
from the Committee.
    [The prepared statement of Dr. Schmitt follows:]

       Prepared Statement of Hon. Harrison H. Schmitt, Chairman, 
                  Interlune-Intermars Initiative, Inc.
Summary
                           Return to the Moon
    A return to the Moon to stay would be at least comparable to the 
first permanent settlement of America if not to the movement of our 
species out of Africa.
    I am skeptical that the U.S. Government can be counted on to make 
such a ``sustained commitment'' absent unanticipated circumstances 
comparable to those of the late 1950s and early 1960s. Therefore, I 
have spent much of the last decade exploring what it would take for 
private investors to make such a commitment. At least it is clear that 
investors will stick with a project if presented to them with a 
credible business plan and a rate of return commensurate with the risk 
to invested capital. My colleagues at the Fusion Technology Institute 
of the University of Wisconsin-Madison and the Interlune Intermars 
Initiative, Inc. believe that such a commercially viable project exists 
in lunar helium-3 used as a fuel for fusion electric power plants on 
Earth.
    Lunar helium-3, arriving at the Moon as part of the solar wind, is 
imbedded as a trace, non-radioactive isotope in the lunar soils. There 
is a resource base of helium-3 about of 10,000 metric tonnes just in 
upper three meters of the titanium-rich soils of Mare Tranquillitatis. 
The energy equivalent value ofHelium-3 delivered to operating fusion 
power plants on Earth would be about $4 billion per tonne relative to 
today's coal. Coal, of course, supplies about half of the approximately 
$40 billion domestic electrical power market.
    A business and investor based approach to a return to the Moon to 
stay represents a clear alternative to initiatives by the U.S. 
Government or by a coalition of other countries. A business-investor 
approach, supported by the potential of lunar Helium-3 fusion power, 
and derivative technologies and resources, offers the greatest 
likelihood of a predictable and sustained commitment to a return to 
deep space.
Oral Summary
    Thank you, Mr. Chairman, for the invitation to participate in this 
hearing. It is good to be back in these familiar surroundings.
    A return to the Moon to stay, when it occurs, will be a truly 
historic event. It would be at least comparable to the first permanent 
settlement of America if not to the movement of our species out of 
Africa.
    The Apollo 17 mission on which I was privileged to fly in December 
1972 was the most recent visit by human beings to the Moon, indeed to 
deep space. A return by Americans to the Moon at least 40 years after 
the end of the Apollo 17 mission probably would represent a commitment 
to return to stay. Otherwise, it is hard to imagine how a sustained 
commitment to return would develop in this country.
    I must admit to being skeptical that the U.S. Government can be 
counted on to make such a ``sustained commitment'' absent unanticipated 
circumstances comparable to those of the late 1950s and early 1960s. 
Therefore, I have spent much of the last decade exploring what it would 
take for private investors to make such a commitment. At least it is 
clear that investors will stick with a project if presented to them 
with a credible business plan and a rate of return commensurate with 
the risk to invested capital. My colleagues at the Fusion Technology 
Institute of the University of Wisconsin-Madison and the Interlune-
Intermars Initiative, Inc. believe that such a commercially viable 
project exists in lunar helium-3 used as a fuel for fusion electric 
power plants on Earth.
    Global demand and need for energy will likely increase by at least 
a factor of eight by the mid-point of the 21st Century. This rapid rise 
will be due to a combination of population increase, new energy 
intensive technologies, aspirations for improved standards of living 
and lower birth rates in the less-developed world, and the need to 
mitigate the adverse consequences of climate warming or cooling.
    Helium has two stable isotopes, helium 4, familiar to all who have 
received helium-filled balloons, and the even lighter helium 3. Lunar 
helium-3, arriving at the Moon as part of the solar wind, is imbedded 
as a trace, non-radioactive isotope in the lunar soils. It represents 
one potential energy source to meet this century's rapidly escalating 
demand. There is a resource base ofhelium-3 about of 10,000 metric 
tonnes just in upper three meters of the titanium-rich soils of Mare 
Tranquillitatis. This was the landing region for Neil Armstrong and 
Apollo 11 in 1969. The energy equivalent value of Helium-3 delivered to 
operating fusion power plants on Earth would be about $4 billion per 
tonne relative to today's coal. Coal, of course, supplies about half of 
the approximately $40 billion domestic electrical power market. These 
numbers illustrate the magnitude of the business opportunity for 
helium-3 fusion power to compete for the creation of new electrical 
capacity and the replacement of old during the 21st Century.
    Past technical activities on Earth and in deep space provide a 
strong base for initiating this enterprise. Also, over the last decade, 
there has been historic progress in the development of inertial 
electrostatic confinement (IEC) fusion at the University of Wisconsin-
Madison. Progress there includes the production of over a milliwatt of 
steady-state power from the fusion ofhelium-3 and deuterium. Steady 
progress in IEC research as well as basic physics argues strongly that 
the IEC approach to fusion power has significantly more commercial 
viability than other technologies pursued by the fusion community. It 
will have inherently lower capital costs, higher energy conversion 
efficiency, a range of power from a few hundred megawatts upward, and 
little or no associated radioactivity or radioactive waste. It should 
be noted, however, that IEC research has received no significant 
support as an alternative to Tokamak-based fusion from the Department 
of Energy in spite of that Department's large fusion technology 
budgets. The Office of Science and Technology Policy under several 
Administrations also has ignored this approach.
    On the question of international law relative to outer space, 
specifically the Outer Space Treaty of 1967, that law is permissive 
relative to properly licensed and regulated commercial endeavors. Under 
the 1967 Treaty, lunar resources can be extracted and owned, but 
national sovereignty cannot be asserted over the mining area. If the 
Moon Agreement of 1979, however, is ever submitted to the Senate for 
ratification, it should be deep sixed.
    The creation of capabilities to support helium-3 mining operations 
also will provide the opportunity to support NASA's human lunar and 
planetary research at much reduced cost, as the cost of capital for 
launch and basic operations will be carried by the business enterprise. 
Technology and facilities required for success of a lunar commercial 
enterprise, particularly heavy lift launch and fusion technologies, 
also will enable the conduct, and reduce the cost of many space 
activities in addition to science. These include exploration and 
settlement of Mars, asteroid interception and diversion, and various 
national security initiatives.
    It is doubtful that the United States or any government will 
initiate or sustain a return of humans to the Moon absent a comparable 
set of circumstances as those facing the Congress and Presidents 
Eisenhower, Kennedy, and Johnson in the late 1950s and throughout 
1960s. Huge unfunded ``entitlement'' liabilities and a lack of 
sustained media and therefore public interest will prevent the long-
term commitment of resources and attention that such an effort 
requires.
    If Government were to lead a return to deep space, the NASA of 
today is probably not the agency to undertake a significant new program 
to return humans to deep space, particularly the Moon and then to Mars. 
NASA today lacks the critical mass of youthful energy and imagination 
required for work in deep space. It also has become too bureaucratic 
and too risk-adverse. Either a new agency would need to be created to 
implement such a program or NASA would need to be totally restructured 
using the lessons of what has worked and has not worked since it was 
created 45 years ago. Of particular importance would be the need for 
most of the agency to be made up of engineers and technicians in their 
20s and managers in their 30s, there-institution of design engineering 
activities in parallel with those of contractors, and the streamlining 
of management responsibility. The existing NASA also would need to 
undergo a major restructuring and streamlining of its program 
management, risk management, and financial management structures. Such 
total restructuring would be necessary to re-create the competence and 
discipline necessary to operate successfully in the much higher risk, 
and more complex deep space environment relative to that in near-earth 
orbit.
    Most important for a new NASA or a new agency would be the 
guarantee of a sustained political (financial) commitment to see the 
job through and to not turn back once a deep space operational 
capability exists once again or accidents happen. At this point in 
history, we cannot count on the Government for such a sustained 
commitment. This includes not under-funding the effort-a huge problem 
still plaguing the Space Shuttle, the International Space Station, and 
other current and past programs. That is why I have been looking to a 
more predictable commitment from investors who have been given a 
credible business plan and a return on investment commensurable with 
the risk.
    Attaining a level of sustaining operations for a core business in 
fusion power and lunar resources requires about 10-15 years and $10 
billion to $15 billion of private investment capital as well as the 
successful interim marketing and profitable sales related to a variety 
of applied fusion technologies. The time required from start-up to the 
delivery of the first 100 kg years supply to the first operating 1000 
megawatt fusion power plant on Earth will be a function of the rate at 
which capital is available, but probably no less than 10 years. This 
schedule also depends to some degree on the U.S. Government being 
actively supportive in matters involving taxes, regulations, and 
international law but no more so than is expected for other commercial 
endeavors. If the U.S. Government also provided an internal environment 
for research and development of important technologies, investors would 
be encouraged as well. As you are aware, the precursor to NASA, the 
National Advisory Committee on Aeronautics (NACA), provided similar 
assistance and antitrust protection to aeronautics industry research 
during most of the 20th Century.
    A business and investor based approach to a return to the Moon to 
stay represents a clear alternative to initiatives by the U.S. 
Government or by a coalition of other countries. Although not yet 
certain of success, a business-investor approach, supported by the 
potential of lunar Helium-3 fusion power, and derivative technologies 
and resources, offers the greatest likelihood of a predictable and 
sustained commitment to a return to deep space.
Full Text
    The Apollo 17 mission on which I was privileged to fly in December 
1972 was the most recent visit by human beings to the Moon, indeed to 
deep space. A return by Americans to the Moon at least 40 years after 
the end of the Apollo 17 mission probably would represent a commitment 
to return to stay. Otherwise, it is hard to imagine how a sustained 
commitment to return would develop in this country.
    I must admit to being skeptical that the U.S. Government can be 
counted on to make such a ``sustained commitment'' absent unanticipated 
circumstances comparable to those of the late 1950s and early 1960s. 
Therefore, I have spent much of the last decade exploring what it would 
take for private investors to make such a commitment. At least it is 
clear that investors will stick with a project if presented to them 
with a credible business plan and a rate of return commensurate with 
the risk to invested capital. My colleagues at the Fusion Technology 
Institute of the University of Wisconsin-Madison and the Interlune-
Intermars Initiative, Inc. believe that such a commercially viable 
project exists in lunar helium-3 used as a fuel for fusion electric 
power plants on Earth.
    Global demand and need for energy will likely increase by at least 
a factor of eight by the mid-point of the 21st Century. This factor 
represents the total of a factor of two to stay even with population 
growth and a factor of four or more to meet the aspirations of people 
who wish to significantly improve their standards of living. There is 
another unknown factor that will be necessary to mitigate the adverse 
effects of climate change, whether warming or cooling, and the demands 
of new, energy intensive technologies.
    Helium has two stable isotopes, helium 4, familiar to all who have 
received helium-filled balloons, and the even lighter helium 3. Lunar 
helium-3, arriving at the Moon as part of the solar wind, is imbedded 
as a trace, non-radioactive isotope in the lunar soils. It represents 
one potential energy source to meet this century's rapidly escalating 
demand. There is a resource base of helium-3 of about 10,000 metric 
tonnes just in upper three meters of the titanium-rich soils of Mare 
Tranquillitatis. This was the landing region for Neil Armstrong and 
Apollo 11 in 1969. The energy equivalent value of Helium-3 delivered to 
operating fusion power plants on Earth would be about $4 billion per 
tonne relative to today's coal. Coal, of course, supplies about half of 
the approximately $40 billion domestic electrical power market. These 
numbers illustrate the magnitude of the business opportunity for 
helium-3 fusion power to compete for the creation of new electrical 
capacity and the replacement of old plant during the 21st Century.
    Past technical activities on Earth and in deep space provide a 
strong base for initiating this enterprise. Such activities include 
access to and operations in deep space as well as the terrestrial 
mining and surface materials processing industries. Also, over the last 
decade, there has been historic progress in the development of inertial 
electrostatic confinement (IEC) fusion at the University of Wisconsin-
Madison. Progress there includes the production of over a milliwatt of 
steady-state power from the fusion of helium-3 and deuterium. Steady 
progress in IEC research as well as basic physics argues strongly that 
the IEC approach to fusion power has significantly more commercial 
viability than other technologies pursued by the fusion community. It 
will have inherently lower capital costs, higher energy conversion 
efficiency, a range of power from a few hundred megawatts upward, and 
little or no associated radioactivity or radioactive waste. It should 
be noted, however, that IEC research has received no significant 
support as an alternative to Tokamak-based fusion from the Department 
of Energy in spite of that Department's large fusion technology 
budgets. The Office of Science and Technology Policy under several 
Administrations also has ignored this approach.
    On the question of international law relative to outer space, 
specifically the Outer Space Treaty of 1967, that law is permissive 
relative to properly licensed and regulated commercial endeavors. Under 
the 1967 Treaty, lunar resources can be extracted and owned, but 
national sovereignty cannot be asserted over the mining area. If the 
Moon Agreement of 1979, however, is ever submitted to the Senate for 
ratification, it should be deep sixed. The uncertainty that this 
Agreement would create in terms of international management regimes 
would make it impossible to raise private capital for a return to the 
Moon for helium-3 and would seriously hamper if not prevent a 
successful initiative by the United States Government.
    The general technologies required for the success of this 
enterprise are known. Mining, extraction, processing, and 
transportation of helium-3 to Earth requires innovations in 
engineering, particularly in light-weight, robotic mining systems, but 
no known new engineering concepts. By-products of lunar helium-3 
extraction, largely hydrogen, oxygen, and water, have large potential 
markets in space and ultimately will add to the economic attractiveness 
of this business opportunity. Inertial electrostatic confinement (IEC) 
fusion technology appears be the most attractive and least capital 
intensive approach to terrestrial fusion power plants, although 
engineering challenges of scaling remain for this technology. Heavy 
lift launch costs comprise the largest cost uncertainty facing initial 
business planning, however, many factors, particularly long term 
production contracts, promise to lower these costs into the range of 
$1-2000 per kilogram versus about $70,000 per kilogram fully burdened 
for the Apollo Saturn V rocket.
    A business enterprise based on lunar resources will be driven by 
cost considerations to minimize the number of humans required for the 
extraction of each unit of resource. Humans will be required, on the 
other hand, to prevent costly breakdowns of semi-robotic mining, 
processing, and delivery systems, to provide manual back-up to robotic 
or tele-robotic operation, and to support human activities in general. 
On the Moon, humans will provide instantaneous observation, 
interpretation, and assimilation of the environment in which they work 
and in the creative reaction to that environment. Human eyes, 
experience, judgement, ingenuity, and manipulative capabilities are 
unique in and of themselves and highly additive in synergistic and 
spontaneous interaction with instruments and robotic systems (see 
Appendix A).
    Thus, the next return to the Moon will approach work on the lunar 
surface very pragmatically with humans in the roles of exploration 
geologist, mining geologist/engineer, heavy equipment operator/
engineer, heavy equipment/robotic maintenance engineer, mine manager, 
and the like. During the early years of operations the number of 
personnel will be about six per mining/processing unit plus four 
support personnel per three mining/processing units. Cost 
considerations also will drive business to encourage or require 
personnel to settle, provide all medical care and recreation, and 
conduct most or all operations control on the Moon.
    The creation of capabilities to support helium-3 mining operations 
also will provide the opportunity to support NASA's human lunar and 
planetary research at much reduced cost, as the cost of capital for 
launch and basic operations will be carried by the business enterprise. 
Science thus will be one of several ancillary profit centers for the 
business, but at a cost to scientists much below that of purely 
scientific effort to return to the Moon or explore Mars. Technology and 
facilities required for success of a lunar commercial enterprise, 
particularly heavy lift launch and fusion technologies, also will 
enable the conduct, and reduce the cost of many space activities in 
addition to science. These include exploration and settlement of Mars, 
asteroid interception and diversion, and various national security 
initiatives.
    It is doubtful that the United States or any government will 
initiate or sustain a return of humans to the Moon absent a comparable 
set of circumstances as those facing the Congress and Presidents 
Eisenhower, Kennedy, and Johnson in the late 1950s and throughout 
1960s. Huge unfunded ``entitlement'' liabilities and a lack of 
sustained media and therefore public interest will prevent the long-
term commitment of resources and attention that such an effort 
requires. Even if tax-based funding commitments could be guaranteed, it 
is not a foregone conclusion that the competent and disciplined 
management system necessary to work in deep space would be created and 
sustained.
    If Government were to lead a return to deep space, the NASA of 
today is probably not the agency to undertake a significant new program 
to return humans to deep space, particularly the Moon and then to Mars. 
NASA today lacks the critical mass of youthful energy and imagination 
required for work in deep space. It also has become too bureaucratic 
and too risk-adverse. Either a new agency would needed to implement 
such a program or NASA would need to be totally restructured using the 
lessons of what has worked and has not worked since it was created 45 
years ago. Of particular importance would be for most of the agency to 
be made up of engineers and technicians in their 20s and managers in 
their 30s, the re-institution of design engineering activities in 
parallel with those of contractors, and the streamlining of management 
responsibility. The existing NASA also would need to undergo a major 
restructuring and streamlining of its program management, risk 
management, and financial management structures. Such total 
restructuring would be necessary to re-create the competence and 
discipline necessary to operate successfully in the much higher risk 
and more complex deep space environment relative to that in near-earth 
orbit.
    Most important for a new NASA or a new agency would be the 
guarantee of a sustained political (financial) commitment to see the 
job through and to not turn back once a deep space operational 
capability exists once again or accidents happen. At this point in 
history, we cannot count on the Government for such a sustained 
commitment. This includes not under-funding the effort-a huge problem 
still plaguing the Space Shuttle, the International Space Station, and 
other current and past programs. That is why I have been looking to a 
more predictable commitment from investors who have been given a 
credible business plan and a return on investment commensurable with 
the risk.
    Attaining a level of sustaining operations for a core business in 
fusion power and lunar resources requires about 10-15 years and $10 
billion to $15 billion of private investment capital as well as the 
successful interim marketing and profitable sales related to a variety 
of applied fusion technologies. The time required from start-up to the 
delivery of the first 100 kg years supply to the first operating 1000 
megawatt fusion power plant on Earth will be a function of the rate at 
which capital is available, but probably no less than 10 years. This 
schedule also depends to some degree on the U.S. Government being 
actively supportive in matters involving taxes, regulations, and 
international law but no more so than is expected for other commercial 
endeavors. If the U.S. Government also provided an internal environment 
for research and development of important technologies, investors would 
be encouraged as well. As you are aware, the precursor to NASA, the 
National Advisory Committee on Aeronautics (NACA), provided similar 
assistance and antitrust protection to aeronautics industry research 
during most of the 20th Century.
    In spite of the large, long-term potential return on investment, 
access to capital markets for a lunar \3\He and terrestrial fusion 
power business will require a near-term return on investment, based on 
early applications of IEC fusion technology (10). Business plan 
development for commercial production and use of lunar Helium-3 
requires a number of major steps all of which are necessary if long 
investor interest is to be attracted and held to the venture. The basic 
lunar resource endeavor would require a sustained commitment of 
investor capital for 10 to 15 years before there would be an adequate 
return on investment, far too long to expect to be competitive in the 
world's capital markets. Thus, ``business bridges'' with realistic and 
competitive returns on investment in three to five years will be 
necessary to reach the point where the lunar energy opportunity can 
attract the necessary investment capital. They include PET isotope 
production at point-of-use, therapeutic medical isotope production 
independent of fission reactors, nuclear waste transmutation, and 
mobile land mine and other explosive detection. Once fusion energy 
breakeven is exceeded, mobile, very long duration electrical power 
sources will be possible. These business bridges also should advance 
the development of the lunar energy technology base if at all possible.
    A business and investor based approach to a return to the Moon to 
stay represents a clear alternative to initiatives by the U.S. 
Government or by a coalition of other countries. Although not yet 
certain of success, a business-investor approach, supported by the 
potential of lunar Helium-3 fusion power, and derivative technologies 
and resources, offers the greatest likelihood of a predictable and 
sustained commitment to a return to deep space.
Appendix A: Space Exploration and Development--Why Humans?
    The term ``space exploration'' implies the exploration of the Moon, 
planets and asteroids, that is, ``deep space,'' in contrast to 
continuing human activities in Earth orbit. Human activities in Earth 
orbit have less to do with exploration and more to do with 
international commitments, as in the case of the Space Station, and 
prestige and technological development, as in the case of China and 
Russia. There are also research opportunities, not fully recognized 
even after 40 years, that exploit the opportunities presented by being 
in Earth orbit.
    Deep space exploration has been and should always be conducted with 
the best combination of human and robotic techniques. Many here will 
argue the value of robotics. I will just say that any data collection 
that can be successfully automated at reasonable cost should be. In 
general, human being's should not waste their time with activities such 
as surveying, systematic photography, and routine data collection. 
Robotic precursors into situations of undefined or uncertain risk also 
are clearly appropriate.
    Direct human exploration, however, offers exceptional benefits that 
robotic exploration currently cannot and probably will not duplicate in 
the foreseeable future, certainly not at competitive costs. What we are 
really talking about here is the value of field geology. Many of my 
scientific colleagues, including the late Carl Sagan, have made the 
argument that everything we learned scientifically from Apollo 
exploration could have been done roboticly. Not only do the facts not 
support this claim, but such individuals and groups have never been 
forced to cost out such a robotic exploration program. I submit that 
robotic duplication of the vast scientific return of human exploration 
of six sites on the Moon would cost far more that the approximately $7 
billion spent on science and probably more than the $100 million total 
cost of Apollo. Those are estimates in today's dollars.
    What do humans bring to the table?
    First, there is the human brain--a semi-quantitative super 
computer, with hundreds of millions years of research and development 
behind it and several million years of accelerated refinement based on 
the requirements for survival of our genus. This brain is both 
programmable and instantly re-programmable on the basis of training, 
experience, and preceding observations.
    Second, there are the human eyes--a high resolution, stereo optical 
system of extraordinary dynamic range that also have resulted from 
hundreds of millions of years of trial and error. Integrated with the 
human brain, this system continuously adjusts to the changing optical 
and intellectual environment encountered during exploration of new 
situations. In that sense, field geological and biological exploration 
is little different from many other types of scientific research where 
integration of the eyes and brain are essential parts of successful 
inquiries into the workings of Nature.
    Third, there are the human hands--a highly dexterous and sensitive 
bio mechanical system also integrated with the human brain as well as 
the human eyes and also particularly benefiting from several million 
years of recent development. We so far have grossly underutilized human 
hands during space exploration, but the potential is there to bring 
them fully to bear on future activities possibly through integration 
with robotic extensions or micro-mechanical device integration into 
gloves.
    Fourth, there are human emotions-the spontaneous reaction to the 
exploration environment that brings creativity to bear on any new 
circumstance, opportunity, or problem. Human emotions also are the 
basis for public interest in support of space exploration, interest 
beyond that which can be engendered by robotic exploration. Human 
emotions further create the very special bond that space exploration 
has with young people, both those of all ages in school and those who 
wish to participate directly in such exploration.
    Fifth, there is the natural urge of the human species to expand its 
accessible habitats and thus enhance the probability of its long-term 
survival. Deep space exploration by humans provides the foundations for 
long-term survival through the settlement of the Moon and Mars in this 
century and the Galaxy in the next.
    Finally, there is a special benefit to deep space exploration by 
Americans--the continual transplantation of the institutions of freedom 
to those human settlements on the Moon and Mars. This is our special 
gift and our special obligation to the future.
Selected References
   1.  Schmitt, H. H., Journal of Aerospace Engineering, April1997, pp 
        60-67.
   2.  Wittenberg, L. J., and co-workers, Fusion Technology, 1986, 10, 
        pp 167-178.
   3.  Johnson, J. R., Geophysical Research Letter, 26, 3, 1999, pp 
        385-388.
   4.  Cameron, E. N., Helium Resources of MareTranquillitatis, 
        Technical Report, WCSAR-TR-AR3-9207-1, 1992.
   5.  Kulcinski, G. L., and Schmitt, H. H., 1992, Fusion Technology, 
        21, p. 2221.
   6.  Feldman, W. C., and co-workers, Science, 281, 1998, pp 1496-
        1500.
   7.  Schmitt, H. H., in Mark, H., Ed., Encyclopedia of Space, 2003, 
        Wiley, New York.
   8.  Kulcinski, G. L., 1993, Proceedings, 2nd Wisconsin Symposium on 
        Helium-3 and Fusion Power, WCSAR-TR-AR3-9307-3.
   9.  Schmitt, H. H., 1998, Space 98, Proceedings of the Conference, 
        p. 1-14.
  10.  Kulcinski, G. L. 1996, Proceedings, 12th Topical Meeting on the 
        Technology of Fusion Power, UWFDM-1025.

    Senator Brownback. Thank you, Mr. Schmitt, and thank you 
for those very provocative set of thoughts and ways we could go 
about it. I look forward to the discussion.
    Dr. Angel?

        STATEMENT OF J. ROGER P. ANGEL, Ph.D., DIRECTOR,

            CENTER FOR ASTRONOMICAL ADAPTIVE OPTICS,

           UNIVERSITY OF ARIZONA, STEWARD OBSERVATORY

    Dr. Angel. Thank you, Senator, for having me here.
    I'm an astronomer at the University of Arizona, and quite a 
bit of my time has been spent----
    Senator Brownback. Dr. Angel, please pull that mike closer 
to you. Our technology's not that good here.
    Dr. Angel. My time has been spent learning how to make 
large mirrors for ground-based telescopes, and we're about to 
put the largest ground telescope in Arizona. I think about the 
future of very big telescopes, both on the ground and in space, 
and I recently chaired a meeting supported by the Space Studies 
Board, looking at the uses for very large optics in space. That 
meeting involved astronomers, Earth scientists, various 
government agencies, Defense, and so on, and it was very 
exciting. A lot of these agencies, for different reasons, are 
interested in having much larger telescopes in space. If you 
focus these large telescopes down at the Earth, they give you 
higher resolution and you can see a bigger piece of the Earth 
from the geosynchronous orbit. Of course, these larger 
telescopes let us see further into space, which is very welcome 
for astronomers.
    Although there are many different configurations of 
telescopes, sometimes more than one mirror, different 
wavelengths, there was a common interest, across the agencies, 
in learning how to make very precise optics for large mirrors 
and in having the infrastructure in space to put these 
telescopes in different places. And to view the Earth, you need 
to be in geosynchronous orbit. For astronomy, we're kind of 
torn, because being in low-Earth orbit, where we can do easy 
servicing, like the Hubble, has been enormously advantageous. 
We believe we won't be able to make these large telescopes 
unless we have some of the lessons learned from the Hubble and 
Space Station, about building big structures in space.
    On the other hand, it's a very strong impetus to have these 
telescopes far from the Earth, because the Earth radiates heat, 
telescopes near the Earth are warm. But the farther you can get 
these telescopes from Earth, the telescopes become very cold, 
and then there are just wonderful things to do with cold 
telescopes. And we've seen that already with the Wilkinson MAP 
Telescope, which looked at the microwave background with 
SIRTF--that's just gone up the Webb Telescope. All these 
telescopes are taking advantage of the enormous low 
temperature, cryogenic temperatures, in space, to look for 
infrared waves. And some of the things we could look at in the 
future with a bigger telescope, that can see in the infrared, 
that's cold. For instance, I think--we hope to find planets 
like Earth around other stars, perhaps with smaller telescopes, 
but we have no idea whether these have life on them. If we had 
a big telescope, looking in the infrared, in space, we could 
actually analyze the light from these planets and see if they 
had life. Our own planet, you know, completely changed its 
composition because of life two billion years ago, and if that 
same composition happened in another planet, we could see it 
with one of these big telescopes.
    And another great use, if we can get into the infrared, is 
that--the present understanding of our universe is that after 
the Big Bang, the universe went completely dark for hundreds of 
millions of years; and then, during that time, gravity 
gradually got this whole matter together into lumps; and then, 
finally, after a few hundred million years, this material 
exploded into the very first stars. And up to that time, there 
was only hydrogen and helium in the universe; but after this 
dark age, the first stars created the matter of which we're 
made, carbon and nitrogen and so on. And none of the telescopes 
today can see these first stars. This is, we think, all that 
happened. But with a big telescope, a cold one, we could 
actually see those stars, see when this happened, and see what 
was going on. So that would be another great goal.
    So we have this division. In order to build these things, 
we need people, robots, some mixture, which we'll have to work 
out, but in order to operate them, we need to be far from the 
Earth.
    So the other cold telescopes have gone to orbits--there's 
an orbit a million miles from the Earth, in the opposite 
direction to the Sun, where the spacecraft won't float away and 
where it can run cold, and that's where the Webb Telescope and 
the MAP Telescope are operating, or will operate. So I 
thought--these are hard to get people to. You can bring 
telescopes back to about the distance of the Moon without too 
much energy, but you would still have to get your servicing 
operation out to that distance.
    So then is the question--and I'm sorry it's taken so long--
but what about the Moon, itself, as a place to put telescopes? 
And in the place where Senator Schmitt went, there probably 
isn't a good place for the telescope, because it's very hot in 
the day and very cold at night. But there is an interesting 
place on the Moon, and that's the very South Pole of the Moon, 
here.
    So I haven't been to the Moon, but I can go there in 
imagination. Let's go to the south pole and stand there, and 
what do we see? The Moon spins around an axis, which isn't 
tilted, like the Earth's, so--and it faces the Earth--so we see 
the Earth on the horizon, always there in one place. And during 
the month, we see the Sun go around the horizon. And so we can 
put up a very simple screen and make the telescope completely 
cold, because we can screen from the Earth's radiation and from 
the Sun. So we can get a cryogenic temperature. In fact, if we 
look around, we see that there's a crater right at the south 
pole, and down in the crater, it is cryogenic temperature 
already, so we could put our telescope there.
    And then we notice that on the wall of the crater, the Sun 
always shines, because it's always going around the horizon. So 
our solar power can run continuously.
    And then we notice another great thing. Senator Schmitt has 
pointed to helium as an asset, helium-3, but there's a very 
simple thing at the South Pole which is a huge asset, and 
that's water. There's water ice in these pole craters. And if 
you want to set up a base on the Moon, having water available 
and having electric power continuously available is terrific. 
So I think, independent of any telescopes, this would be a good 
place to have a base.
    And then if we look up in the sky, it's perfect, like the 
clarity of vision that we have at any of the other places in 
space. There's no atmosphere. And then one thing we see is that 
if you look straight up, it's always the same stars up there. 
So we have a problem which I think we haven't thought about, 
and NASA hasn't thought about much yet. That is, there is 
gravity on the Moon. It's a lot less than on the Earth, but 
maybe we could build telescopes that we could steer around in 
this place, in this cryogenic environment. There's a very 
simple thing that we could do. That is, the job of looking for 
these first stars. We can look straight up, where the same 
stars are always there. So we could build a simple telescope--a 
big one, but dumb; it just sits there, looking straight up--
that could do this job of finding the very first stars after 
the Big Bang.
    So it's a very interesting place, as a base and for 
astronomy. I think my friends in astronomy would say, ``Looking 
straight up is great, but we''--and I'd say, because the stars 
that have planets aren't straight up, they're wherever they 
want to be. So if we want to do a full job of astronomy, we 
would have to eventually learn how to make a telescope there 
that could at least see around the vertical axis to follow 
stars. But it is, I think, a very interesting place for really 
good astronomy.
    I just want to finish. I hope that NASA planning, up to 
this point, has been, I think, more focused on going to the 
free orbiting sites, like where MAP and Webb are, but I hope 
they will consider telescopes on the Moon. And I think it 
should be an input where we think where we're going after Space 
Station and after Shuttle. What do we need to go? What do we 
need to do? I hope this will be one of the options that gets 
looked at very seriously.
    [The prepared statement of Mr. Angel follows:]

 Prepared Statement of J. Roger P. Angel, Ph.D., Director, Center for 
   Astronomical Adaptive Optics, Steward Observatory, University of 
                                Arizona

          Construction and Utilization of Lunar Observatories

    I am an astronomer at the University of Arizona, where big ground-
based telescopes and their mirrors are made. We are now completing 
construction of the Large Binocular Telescope, which will become the 
single largest in the world.
    In September this year I chaired a meeting sponsored by the 
National Academy of Science's Space Studies Board to look at future 
needs and technologies for large optics in space. We found broad 
interest in sizes beyond the 2.4 m Hubble and planned 6 m James Webb 
Space Telescopes, for astronomical research, for environmental studies 
and for defense. The different uses lead to different telescope 
configurations, wavelengths of operation (from ultraviolet to 
millimeter), and different optimum locations. But we found strong 
common interest across the agencies in developing technologies to make 
and control very big optical systems to exquisite, diffraction-limited 
quality and in the infrastructure to construct, deploy and service very 
large optical systems in space.
    For Earth imaging and defense, the optical systems need to be near 
Earth, and geosynchronous orbits are especially valuable. For 
astronomy, operation in low Earth orbit, like Hubble Space Telescope, 
has the huge, proven advantage of astronaut access, but has limits 
because of the constant cycling in and out of sunlight. The major limit 
is that deep infrared observations are not possible, because they 
require a cryogenically cooled telescope, permanently shaded from solar 
light and far from the heat radiated by the warm Earth. The recently 
launched 0.9 m SIRTF telescope and the Webb telescope are in such 
locations.
    Let me mention two different astronomical goals that would need 
even larger telescopes. One is detection of warm, Earth-sized planets 
around nearby stars like the sun. We expect to find them with bigger 
telescopes, but have no idea if they will have life. But we could find 
out by analyzing their spectra. Another goal will be to see the light 
of the first stars that has been on its way towards us through most of 
time. Our understanding is that the big bang created a uniform gas of 
just hydrogen and helium, and that after this cooled off the universe 
was completely dark and without form for hundreds of millions of years. 
And then there was light. Gravity had slowly pulled the gas together 
into lumps and then into to massive, brilliant stars, whose nuclear 
burning started to produce the elements like carbon and oxygen and iron 
from which the Earth and life are made.
    We know a lot about the big bang, because it was so bright we can 
easily see and analyze its brilliant light, now cooled off to become 
radio waves. First seen from New Jersey, these were recently mapped out 
from Antarctica and by NASA's cryogenic WMAP spacecraft. Today we can 
only speculate on the first stars, but their light will now be in the 
form of faint heat waves. Given a very big, very cold telescope in 
space that stares for a year or more at the same spot, we could likely 
detect them and analyze their spectra.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The circle shows the 6+ diameter field accessible to the zenith 
pointing telescope at the lunar south pole. Ultraviolet image recorded 
on the Moon by John Young and Charles Duke\5\.
    What we need for a such a telescope is find a way to combine the 
capability for maintenance and improvement of HST with operation at a 
remote, permanently shaded operation. Most thinking so far at NASA has 
focused on operation at the WMAP and proposed Webb location, in an 
orbit of the sun a million miles beyond Earth's (L2). Servicing would 
likely involve ferrying a telescope (or part of it) to a nearer orbit, 
but still 'l'4 million miles away, for more convenient access.
    An alternative location for a very large telescope would be the 
lunar south pole, in the Shackleton crater where the sun never shines 
and cryogenic temperatures prevail. This would be convenient for 
construction and maintenance if there were a Moon base at the pole. The 
Moon has no atmosphere, so light from the stars would have the same 
pristine quality as in free space. Only the southern hemisphere would 
be observable, but this is not a major astronomical limitation.
    The lunar south pole is a good choice for siting a lunar base, 
independent of any telescope. The craters are believed to contain water 
ice, most valuable than gold for the base\1\. Also, the crater rim has 
small areas of nearly eternal sunshine, simplifying problems of 
maintaining electric power and temperate living conditions\2\. 
Furthermore, the adjacent South-Pole-Aitken basin is the oldest and 
deepest impact crater on the Moon, and has been flagged for study in 
the recent NRC study\3\.
    Many technical, engineering and infrastructure issues remain to be 
explored. The Moon provides a platform on which to build big 
structures, but it also comes with gravity and weight, albeit at 1/
6\1\th of the Earth's value. Freely-orbiting telescopes avoid the need 
for bearings and drives. Magnetic levitation on superconducting 
bearings might simplify the task of turning the telescope around during 
each month to track the stars. We would need to make sure the telescope 
optics are not compromised by vibrations or dust and condensed gas from 
the base.
    Gravity can be turned to an advantage for the kind of telescope we 
need to look back to the first stars. These will be all over the sky, 
and a good place to look is straight overhead. From the Moon's pole the 
infrared sky is darkest overhead, and we can look at the same 
unchanging patch of sky for the years needed to study the extremely 
faint first stars. A specialized telescope for this work doesn't have 
to move. Very high resolution images could be made with multiple such 
telescopes laid out as an interferometer, with no moving parts. We may 
even be able to use a trick to make a telescope mirror looking straight 
up by spinning a thin layer of reflecting liquid in a big dish. A 6-m 
diameter telescope of very high quality has been built like this very 
inexpensively in Canada\4\. Bigger ones won't work on the Earth because 
the spinning makes a wind that ruffles the surface. But with no wind or 
air on the Moon, a 20 m or larger mirror might be made this way. A 
cryogenic liquid with evaporated gold coating would be used. A fixed 
telescope would not satisfy many astronomical goals, which need access 
over a good part of the sky. For example, the few nearby stars where we 
can hope to study Earth-like planets are randomly distributed all over 
the sky. But a liquid telescope at a manned base could undertake one of 
the challenging observations we have for big telescopes. Experience 
developed in this way at the base might then show that a fully-
steerable big telescope would be practical on the Moon.
    More details of the liquid mirror telescope and its scientific 
potential are give in the attached white paper.
References
  1.  Vondrak, R. R. and Crider, D. H. Ice at the Lunar Poles. American 
        Scientist (2003)
  2.  Bussey, D. B. J., Robinson, M.S., Spudis, P. D. Illumination 
        Conditions at the Lunar Poles 30th Annual Lunar and Planetary 
        Science Conference, Houston (1999)
  4.  Cabanac, R. A., Hickson, P. and de Lapparent, V. The Large Zenith 
        Telescope Survey: A Deep Survey Using a 6-m Liquid Mirror 
        Telescope in A New Era in Cosmology, eds Metcalfe, N. and 
        Shanks, T. ASP Conference Proceedings 283. p 129 (2002)
  3.  NRC New Frontiers in the Solar System: An Integrated Exploration 
        Strategy. Space Studies Board (2002)
  5.  Page, T and Carruthers, G. R. Distribution of hot stars and 
        hydrogen in the Large Magellanic Cloud. Ap. J. 248, 906-924 
        (1981)

    Senator Brownback. Thank you, Dr. Angel. It was very 
thoughtful, very thought-provoking.
    Dr. Criswell?

         STATEMENT OF DR. DAVID R. CRISWELL, DIRECTOR,

       INSTITUTE FOR SPACE SYSTEMS OPERATIONS, UNIVERSITY

        OF HOUSTON AND UNIVERSITY OF HOUSTON-CLEAR LAKE

    Dr. Criswell. Mr. Chairman and Members of the Subcommittee, 
I'm honored to have this opportunity to introduce a program for 
the economic and environmental security for Earth, and 
especially the United States of America, by meeting Earth's 
real electric power needs.
    By 2050, approximately 10 billion people will live on 
Earth, demanding about five times the power now available. By 
then, solar power from the Moon could provide everyone clean, 
affordable, and sustainable electric power. No terrestrial 
options can provide the needed minimum of two kilowatts 
electric per person, or at least 20 terawatts globally.
    Solar power bases will be built on the Moon that collect a 
small fraction of the Moon's dependable solar power and convert 
it into power beams that will dependably deliver lunar solar 
power to receivers on Earth. On Earth, each power beam will be 
transformed into electricity and distributed on demand through 
local electric power grids. Each terrestrial receiver can 
accept power directly from the Moon or indirectly, via relay 
satellites, when the receiver cannot view the Moon. The 
intensity of each power beam is restricted to 20 percent or 
less of the intensity of noontime sunlight. Each power beam can 
be safely received, for example, in an industrially zoned area.
    The Lunar Solar Power system does not require basic new 
technological developments. Adequate knowledge of the Moon and 
the essential technologies have been available since the late 
1970s to design, build, and operate the LSP system. Automated 
machines and people would be sent to the Moon to build the 
lunar power bases. The machinery would build the power 
components from the common lunar dust and rocks, thereby 
avoiding the high cost of transporting materials from the Earth 
to the Moon. The LSP system is distributed and open. Thus, it 
can readily accommodate new manufacturing and operating 
technologies as they become available.
    Engineers, scientists, astronauts, and managers skilled in 
mining, manufacturing, electronics, industrial production of 
commodities, and aerospace will create new wealth on the Moon. 
Thousands of tele-robotic workers in American facilities, 
primarily on Earth, will oversee the lunar machinery and 
maintain the LSP system.
    Our national space program, in cooperation with advanced 
U.S. industries, can produce the LSP system for a small 
fraction of the cost of building equivalent power-generating 
capacity on Earth. Shuttle and Space-Station-derived systems 
and the LSP production machinery can be operational in space 
and on the Moon within a few years. A demonstration LSP system 
can quickly grow to 50 percent of average U.S. electric 
capacity, about two-tenths of a terawatt electric, within 15 
years, and be profitable thereafter.
    When LSP provides 20 terawatts of electric power to Earth, 
it can sell the electricity at one-fifth of today's costs, or 
about a tenth of a cent a kilowatt electric hour. At current 
electric prices in the U.S., LSP would generate approximately 
$9 trillion per year of net income.
    Like hydroelectric dams, every power receiver on Earth can 
be an engine of clean economic growth. Gross world product can 
increase a factor of ten. The average annual per capita income 
of developing nations can increase from today's approximately 
$2,500 per year per person to the order of $20,000. 
Economically driven immigrations, such as from Mexico and 
Central America to the United States, will gradually decrease. 
Increasingly wealthy developing nations can generate new and 
rapidly growing markets for American goods and services. Lunar 
power can generate hydrogen to fuel cars at low cost and with 
no release of greenhouse gases. United States payments to other 
nations for oil, natural gas, petrochemicals, and commodities 
such as fertilizers will decrease. LSP industries will 
establish new high-value American jobs. LSP will generate major 
investment opportunities for Americans. The average American 
income could increase from today's approximately $35,000 a year 
per person to more than $150,000 per year per person.
    By 2050, the LSP system could allow all human societies to 
prosper while nurturing, rather than consuming, the biosphere.
    Thank you.
    [The prepared statement of Dr. Criswell follows:]

 Prepared Statement of Dr. David R. Criswell, Director, Institute for 
   Space Systems Operations, University of Houston and University of 
                           Houston-Clear Lake
    Mr. Chairman and Members of the Subcommittee:

    I am honored to have this opportunity to introduce a program for 
the economic and environmental security for Earth, and especially for 
the United States of America, by meeting Earth's real electrical power 
needs.
    By 2050, approximately 10 billion people will live on Earth 
demanding 5 times the power now available. By then, solar power from 
the Moon could provide everyone clean, affordable, and sustainable 
electric power. No terrestrial options can provide the needed minimum 
of 2 kWe/person or at least 20 terawatts globally.
    Solar power bases will be built on the Moon that collect a small 
fraction of the Moon's dependable solar power and convert it into power 
beams that will dependably deliver lunar solar power to receivers on 
Earth. On Earth each power beam will be transformed into electricity 
and distributed, on-demand, through local electric power grids. Each 
terrestrial receiver can accept power directly from the Moon or 
indirectly, via relay satellites, when the receiver cannot view the 
Moon. The intensity of each power beam is restricted to 20 percent, or 
less, of the intensity of noontime sunlight. Each power beam can be 
safely received, for example, in an industrially zoned area.
    The Lunar Solar Power (LSP) System does not require basic new 
technological developments. Adequate knowledge of the Moon and the 
essential technologies have been available since the late 1970s to 
design, build, and operate the LSP System. Automated machines and 
people would be sent to the Moon to build the lunar power bases. The 
machines would build the power components from the common lunar dust 
and rocks, thereby avoiding the high cost of transporting materials 
from the Earth to the Moon. The LSP System is distributed and open. 
Thus, it can readily accommodate new manufacturing and operating 
technologies as they become available.
    Engineers, scientists, astronauts, and managers skilled in mining, 
manufacturing, electronics, aerospace, and industrial production of 
commodities will create new wealth on the Moon. Thousands of tele-
robotic workers in American facilities, primarily on Earth, will 
oversee the lunar machinery and maintain the LSP System.
    Our national space program, in cooperation with advanced U.S. 
industries, can produce the LSP System for a small fraction of the cost 
of building equivalent power generating capabilities on Earth. Shuttle-
and Space Station-derived systems and LSP production machinery can be 
in operation in space and on the Moon within a few years. A 
demonstration LSP System can grow quickly to 50 percent of averaged 
U.S. electric consumption, 0.2 TWe, within 15 years and be profitable 
thereafter. When LSP provides 20 terawatts of electric power to Earth 
it can sell the electricity at one-fifth of today's cost or 1  cents/
kWe-h. At current electric prices LSP would generate 9 trillion 
dollars per year of net income.
    Like hydroelectric dams, every power receiver on Earth can be an 
engine of clean economic growth. Gross World Product can increase a 
factor of 10. The average annual per capita income of Developing 
Nations can increase from today's $2,500 to $20,000. Economically 
driven emigrations, such as from Mexico and Central America to the 
United States, will gradually decrease.
    Increasingly wealthy Developing Nations will generate new and 
rapidly growing markets for American goods and services. Lunar power 
can generate hydrogen to fuel cars at low cost and with no release of 
greenhouse gases. United States payments to other nations for oil, 
natural gas, petrochemicals, and commodities such as fertilizer will 
decrease. LSP industries will establish new, high-value American jobs. 
LSP will generate major investment opportunities for Americans. The 
average American income could increase from today's $35,000/y-person 
to more than $150,000/y-person.
    By 2050, the LSP System would allow all human societies to prosper 
while nurturing rather than consuming the biosphere.

The Lunar Solar Power System and its general benefits are described in 
the attached four-page document.

Additional papers are available on these websites and via search 
engines (search on ``David R. Criswell'' or ``Lunar Solar Power''):

The Industrial Physicist
http://www.tipmagazine.com

The World Energy Congress (17th and 18th)
http://www.worldenergy.org/wec-geis/
                              Attachments
                              
                              
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Senator Brownback. Thank you very much, Dr. Criswell, for 
those thoughts, and I look forward to questioning and 
discussing them with you. They're quite provocative, as well.
    Dr. Spudis, thank you very much for joining us.

STATEMENT OF DR. PAUL D. SPUDIS, PLANETARY SCIENTIST, LUNAR AND 
                      PLANETARY INSTITUTE

    Dr. Spudis. Mr. Chairman, Members of the Committee, thank 
you for inviting me here today to testify on the subject of 
lunar exploration and the U.S. Space Program.
    Although we conducted our initial visits to the Moon over 
30 years ago, several recent discoveries indicate that a return 
offers many benefits to the Nation. In addition to being a 
scientifically rich object for study, the Moon offers abundant 
material and energy resources, the feedstock of an industrial 
space infrastructure. Once established, this will give us 
continuous routine access to Earth-Moon space and beyond.
    The value of the Moon as a destination has not escaped the 
notice of other countries. At least four new robotic missions 
are currently being either flown or prepared by Europe, India, 
Japan, and China. Advance planning for human missions in many 
of these countries is already underway.
    With me today is Dr. Bill Stone, a leading explorer and 
expedition leader. The following points represent our joint 
thinking as to why the Nation needs to return to the Moon and 
why that return should take place now, rather than later.
    Point one. NASA needs a politically viable mission, and 
both Shuttle and ISS are losing appeal as space exploration. 
Since the loss of Columbia, we have seen much soul searching 
over the meaning of our space efforts. A sense has developed 
that missions to low-Earth orbit, while technically qualifying 
as spaceflight, leave much to be desired as exploration. Any 
new focus in space must have direct and clear benefits to the 
Nation. What the Nation needs is a Lewis-and-Clark-class 
mission, one that opens the space frontier to the expansion of 
commerce.
    Point two. Human missions to Mars are too technically 
challenging and too expensive to be feasible national space 
goals within the next decade. The current state of technology 
barely supports the idea that we can go there with people. A 
Mars mission would cost hundreds of billions of dollars and 
take more than a decade. The rationale for such a trip is ill-
defined beyond the vague notion that Mars may have once 
harbored primitive cellular life. Such a speculation, while 
intriguing, cannot justify a massive expenditure of Federal 
money.
    Point three. Other possible destinations for people in 
space are perceived to be either too arcane or too 
uninteresting to garner broad national support. Missions to the 
Lagrangian Points are useful departure points to other 
destinations, but contain nothing there themselves, except what 
we put there. As a program, they are, thus, Space Station 2, in 
a different place. Asteroids, the leftover debris of planetary 
formation, take weeks or months to reach, and, once we get 
there, offer little diversity of process, scenery, or terrain. 
Asteroids will be useful in the future for resource 
utilization, but they have little appeal as an exciting human 
destination.
    Point four. The Moon is close, accessible with existing 
systems, and has resources that we can use to create a true 
space-faring economy. The Moon is an ideal target for our next 
destination in space. It is only 3 days away, and accessible 
with existing launch and space assets. We can use the resources 
of the Moon to create access for people and machines to all 
points of Earth-Moon space. In going to the Moon, our new 
mission is to learn how to use off-planet resources.
    Point five. We can conduct a wide variety of important 
scientific research on the Moon, ranging from planetary science 
to astronomy and high-energy physics. The Moon is a natural 
laboratory for planetary and space science. In particular, it 
offers a detailed record of the impact history in the Earth-
Moon system, including the major impact episodes responsible 
for the extinction of life on Earth. Further study can 
illuminate not only our early history, but possibly our fate.
    Point six. Hydrogen, probably in the form of water ice, 
exists at both poles of the Moon and can be extracted and 
processed into rocket propellent and life-support consumables. 
In 1994, the Department of Defense Clementine Mission, which I 
was fortunate enough to be involved in as a science team 
member, discovered water ice in the dark areas near the South 
Pole of the Moon, a discovery later confirmed by NASA's Lunar 
Prospector. This water ice is stable because the floors of the 
polar craters never receive sunlight and are, hence, very cold. 
At least 10 billion tons of hydrogen are available at the lunar 
poles, a volume of water equivalent to the Great Salt Lake. 
This material can be collected and used to make hydrogen and 
oxygen, rocket propellent for transport, and be used as water 
and oxygen to support human life on the Moon and in space.
    Point seven. We can be back on the Moon with 5 to 7 years 
for only a modest increase in existing space budgets. We can 
return to the Moon using existing or Shuttle-derived launch 
systems and Station-derived hardware. Missions can be staged 
from and return to the International Space Station. A complete 
program includes robotic precursor missions and the initial 
human visits to the Moon within 5 years, and production of 
usable lunar resource commodities within 7 years. An 
alternative implementation that focuses on cost reduction and 
early return on investment is described in Dr. Stone's 
``Shackelton Crater Expedition,'' attached to my testimony. No 
matter which implementation is selected, lunar return is 
feasible from both a budgetary and technical perspective.
    Point eight. The establishment of a space economy based on 
the use of lunar resources will enable routine travel, with 
people, throughout the Earth-Moon system. By learning to 
characterize, extract, and use lunar resources, we free 
ourselves from the surly bonds of Earth. Operations in space 
become routine and inexpensive. This goal, while challenging, 
is within our current technical means, or modest extensions of 
them. For humanity to have a future in space, we must learn to 
live off the land.
    Point nine. The establishment of an Earth-Moon economy 
enhances national security and commerce. The availability of 
cheap lunar fuel in low-Earth orbit will change the way 
national security assets are designed and deployed. It will 
dramatically reduce the cost of procurement of such assets, 
while extending their useful life, service life, by enabling 
routine access for maintenance and repair.
    Point ten. The infrastructure created by a return to the 
Moon will allow us to travel to the planets in the future more 
safely and cost effectively. Routine travel to the Moon also 
means routine access to the gravitationally stable Lagrangian 
points, from which economical missions to the planets, 
including Mars, can be staged using lunar propellent. Thus, a 
program to develop and use resources from the Moon is not a 
diversion from other goals, it is an enabling activity.
    America needs a challenging, vigorous space program, one 
with a mission that inspires and enriches. It must relate to 
important national needs, yet push the boundaries of the 
possible. It must serve larger national concerns, beyond 
scientific endeavors. A return to the Moon fulfills these 
goals. It is a technical challenge to the Nation. It creates 
security for America by assuring access to and control of our 
assets in Earth-Moon space. It creates wealth in new markets by 
producing commodities of high commercial value. It stimulates 
and inspires the next generation by giving them the chance to 
experience spaceflight for themselves. A return to the Moon is 
the right destination for America.
    Thank you for your attention. I would be happy to answer 
any questions.
    [The prepared statement of Dr. Spudis follows:]

    Prepared Statement of Dr. Paul D. Spudis, Planetary Scientist, 
                     Lunar and Planetary Institute
    Mr. Chairman and members of the Committee, thank you for inviting 
me here today to testify on the subject of lunar exploration and the 
U.S. space program.
    I want to discuss a new destination for America in space--the Moon. 
Although we conducted our initial visits to that body over 30 years 
ago, we have recently made several important discoveries that indicate 
a return to the Moon offers many advantages and benefits to the Nation. 
In addition to being a scientifically rich object for study, the Moon 
offers abundant material and energy resources, the feedstock of an 
industrial space infrastructure. Once established, such an 
infrastructure will revolutionize space travel, assuring us of 
continuous, routine access to cislunar space (i.e., the space between 
and around Earth and Moon) and beyond. The value of the Moon as a space 
destination has not escaped the notice of other countries--at least 
four new robotic missions are currently being flown or prepared by 
Europe, India, Japan, and China and advanced planning for human 
missions in many of these countries is already underway.
    With me here today is Dr. Bill Stone, a prominent explorer and 
expedition leader. The points which I will present represent our joint 
thinking as to WHY the Nation needs to return to the Moon and why that 
return should take place NOW rather than later.

  (1)  NASA needs a politically viable mission and both Shuttle and ISS 
        are losing appeal as ``space exploration.'' America needs a 
        compelling space program!

    Forty years ago, America made a decision to go to the Moon, 
starting from a state of primitive technology and vast ignorance. We 
accomplished this great feat within 8 years, giving us for the first 
time the ability to travel to another world. We now have a commercial 
launch industry that each year lifts a mass equivalent to an Apollo 
mission to geosynchronous orbit. Its mission accomplished, NASA looked 
to other programs to keep the dream of space flight alive. Shuttle was 
presented as an affordable means to low Earth orbit. Space Station was 
planned as both a laboratory in orbit and a way station to the rest of 
the Solar System. Meanwhile, the Moon largely was ignored as an object 
worthy of study in its own right, as a natural space station to 
provision and enable space flight farther a field, and as a center of 
commerce and national security.
    NASA's current problems are partly technical, but mostly related to 
the fact that it no longer has a mission, as in its early ``Days of 
Glory.'' Forty years ago, its mission was to beat the Soviets to the 
Moon, a clear goal articulated by the national leadership and presented 
with a deadline (by the end of the decade). Now, the agency looks for a 
mission, but has yet to find one, at least, one perceived by government 
and the American people as worthy of long-term commitment. In the 
absence of such a goal, we drift between projects and have some 
success, but nothing is cumulative, where each step builds upon and 
extends the capability of the step preceding it.
    A new national focus in space must have a direct and clear benefit 
to the American public. Pure science and the search for life are not 
defensible justifications. As Dr. Stone has put it recently, what the 
Nation needs is a Lewis and Clark-class mission--one that opens the 
frontier to the expansion of the external commerce of the United States 
(through the general participation of its people and industry) and to 
the enhancement of the security of the Nation. The recent loss of 
Shuttle Columbia has only heightened the perception that we are adrift 
in space, with no long-term goals or direction. Death and risk are part 
of life and not to be feared, especially in the field of exploration, 
but for death to have meaning, the objectives of such exploration must 
be significant. Great nations do great (and ambitious) things. The 
Apollo project was one such example; a return to the Moon to learn how 
to live off-planet can be another.

  (2)  Human missions to Mars currently are too technically challenging 
        and too expensive to be feasible national space goals within 
        the next decade.

    Although much attention is given to the idea of human missions to 
Mars as the next big goal in space, such a journey is at present beyond 
our technical and economic capabilities. The large amount of 
discretionary money needed for such a journey is simply not available 
in the Federal budget nor would it be wisely spent on going to Mars in 
an Apollo-style ``flags-and-footprints'' program. The principal 
justification of a manned Mars mission is scientific and such a 
rationale cannot sustain a large investment in the eyes of the 
taxpaying public. Mars awaits exploration by people some time in the 
future, after we have learned how to live and work routinely in space 
and how to make use of the resources available on other worlds to break 
the costly ties to Earth-based rocket transport of materiel.
    American government has a history of supporting long-term, big 
engineering projects, provided that such efforts contribute to goals 
related to national and economic security (e.g., the Panama Canal, the 
Apollo program). The nation needs a mission whose purpose relates to 
these important, enduring objectives. A return to the Moon is such a 
goal. Indeed, it is a necessary goal and the only economically-
justifiable goal at this time.

  (3)  Other possible destinations for people in space are perceived to 
        be either too uninteresting (asteroids) or too arcane 
        (telescopes in deep space) to enjoy ``widespread'' national 
        support.

    Among other possible space destinations for people are the 
Lagranian (L-) points (imaginary spots in space that move in sync with 
Earth, Moon, Sun or other objects) and the minor planets, better known 
as asteroids. The Lagranian points have many advantages for the staging 
of missions that go elsewhere, but the only thing they contain is what 
we put there. In that sense, they are similar to low Earth orbit and 
significant activity at the L-points, without travel beyond them to 
more interesting destinations, would resemble another International 
Space Station put in a different location. Asteroids have great 
potential for exploration and exploitation of resources and may 
eventually become an important destination as a class of objects. 
However, the times required to reach asteroids can equal the months-
long transit times for Mars missions, without the variety of activities 
that could be undertaken at the end of such a trip. Thus, although 
specialized missions to these destinations can be imagined, they do not 
present a compelling return on investment nor the scientific or 
operational variety that other missions possess.

  (4)  The Moon is close, accessible with existing systems, and has 
        resources that we can use to create a true, economical space-
        faring infrastructure

    The Moon is a scientific and economic treasure trove, easily 
reachable with existing systems and infrastructure that can 
revolutionize our national strategic and economic posture in space. The 
dark areas near the poles of the Moon contain significant amounts (at 
least 10 billion tons) of hydrogen, most probably in the form of water 
ice. This ice can be mined to support human life on the Moon and in 
space and to make rocket propellant (liquid hydrogen and oxygen). 
Moreover, we can return to the Moon using the existing infrastructure 
of Shuttle and Shuttle-derived launch systems and the ISS for only a 
modest increase in the space budget within the next five years.
    The ``mission'' of this program is to go to the Moon to learn how 
to use off-planet resources to make space flight easier and cheaper in 
the future. Rocket propellant made on the Moon will permit routine 
access to cislunar space by both people and machines, which is vital to 
the servicing and protection of national strategic assets and for the 
repair and refurbishing of commercial satellites. The availability of 
cheap propellant in low Earth orbit would completely change the way 
engineers design spacecraft and the way companies and the government 
think of investing in space assets. It would serve to dramatically 
reduce the cost of space infrastructure to both the government and to 
the private sector, thus spurring economic investment (and profit).

  (5)  The Moon is a scientific treasure house and a unique resource, 
        on which important research, ranging from planetary science to 
        astronomy and high-energy physics, can be conducted.

    Generally considered a simple, primitive body, the Moon is actually 
a small planet of surprising complexity. Moreover, the period of its 
most active geological evolution, between 4 and 3 billion years ago, 
corresponds to a ``missing chapter'' of Earth history. The processes 
that work on the Moon--impact, volcanism, and tectonism (deformation of 
the crust)--are the same ones that affect all of the rocky bodies of 
the inner solar system, including the Earth. Because the Moon has no 
atmosphere or running water, its ancient surface is preserved in nearly 
pristine form and its geological story can be read with clarity and 
understanding. Because the Moon is Earth's companion in space, it 
retains a record of the history of this corner of the Solar System, 
vital knowledge unavailable on any other planetary object.
    Of all the scientific benefits of Apollo, appreciation of the 
importance of impact, or the collision of solid bodies, in planetary 
evolution must rank highest. Before we went to the Moon, we had to 
understand the physical and chemical effects of these collisions, 
events completely beyond the scale of human experience. Of limited 
application at first, this new knowledge turned out to have profound 
consequences. We now believe that large-body collisions periodically 
wipe out species and families on Earth, most notably, the extinction of 
dinosaurs 65 million years ago. The telltale residue of such large body 
impacts in Earth's past is recognized because of knowledge we acquired 
about impact from the Moon. Additional knowledge still resides there; 
while the Earth's surface record has been largely erased by the dynamic 
processes of erosion and crustal recycling, the ancient lunar surface 
retains this impact history. When we return to the Moon, we will 
examine this record in detail and learn about its evolution as well as 
our own.
    Because the Moon has no atmosphere and is a quiet, stable body, it 
is the premier place in space to observe the universe. Telescopes 
erected on the lunar surface will possess many advantages. The Moon's 
level of seismic activity is orders of magnitude lower than that of 
Earth. The lack of an atmosphere permits clear viewing, with no 
spectrally opaque windows to contend with; the entire electromagnetic 
spectrum is visible from the Moon's surface. Its slow rotation (one 
lunar day is 708 hours long, about 28 terrestrial days) means that 
there are long times of darkness for observation. Even during the lunar 
day, brighter sky objects are visible through the reflected surface 
glare. The far side of the Moon is permanently shielded from the din of 
electromagnetic noise produced by our industrial civilization. There 
are areas of perpetual darkness and sunlight near the poles of the 
Moon. The dark regions are very cold, only a few tens of degrees above 
absolute zero and these natural ``cold traps'' can be used to passively 
cool infrared detectors. Thus, telescopes installed near the lunar 
poles can both see entire celestial hemispheres all at once and with 
infrared detectors, cooled for ``free,'' courtesy of the cold traps.

  (6)  Hydrogen, probably in the form of water ice, exists at the poles 
        of the Moon that can be extracted and processed into rocket 
        propellant and life-support consumables

    The joint DOD-NASA Clementine mission was flown in 1994. Designed 
to test sensors developed for the Strategic Defense Initiative (SDI), 
Clementine was an amazing success story. This small spacecraft was 
designed, built, and flown within the short time span of 24 months for 
a total cost of about $150 M (FY 2003 dollars), including the launch 
vehicle. Clementine made global maps of the mineral and elemental 
content of the Moon, mapped the shape and topography of its surface 
with laser altimetry, and gave us our first good look at the intriguing 
and unique polar regions of the Moon. Clementine did not carry 
instruments specifically designed to look for water at the poles, but 
an ingenious improvisation used the spacecraft communications antenna 
to beam radio waves into the polar regions; radio echoes were observed 
using the Deep Space Network dishes. Results indicated that material 
with reflection characteristics similar to ice are found in the 
permanently dark areas near the south pole. This major discovery was 
subsequently confirmed by a different experiment flown on NASA's Lunar 
Prospector spacecraft four years later in 1998.
    The Moon contains no internal water; all water is added to it over 
geological time by the impact of comets and water-bearing asteroids. 
The dark areas near the poles are very cold, only a few degrees above 
absolute zero. Thus, any water that gets into these polar ``cold 
traps'' cannot get out so over time, significant quantities accumulate. 
Our current best estimate is that over 10 billion cubic meters of water 
exist at the lunar poles, an amount equal to the volume of Utah's Great 
Salt Lake--without the salt! Although hydrogen and oxygen can be 
extracted directly from the lunar soil (solar wind hydrogen is 
implanted on the dust grains of the surface, allowing the production of 
propellant and water directly from the bone-dry dust), such processing 
is difficult and energy-expensive. Polar water has the advantage of 
already being in a concentrated useful form, greatly simplifying 
scenarios for lunar return and habitation. Broken down into hydrogen 
and oxygen, water is a vital substance both for human life support and 
rocket propellant. Water from the lunar cold traps advances our space-
faring infrastructure by creating our first space ``filling station.''
    The poles of the Moon are useful from yet another resource 
perspective--the areas of permanent darkness are in proximity to areas 
of near-permanent sunlight. Because the Moon's axis of rotation is 
nearly perpendicular to the plane of the ecliptic, the sun always 
appears on or near the horizon at the poles. If you're in a hole, you 
never see the Sun; if you're on a peak, you always see it. We have 
identified several areas near both the north and south poles of the 
Moon that offer near-constant sun illumination. Moreover, such areas 
are in darkness for short periods, interrupting longer periods of 
illumination. Thus, an outpost or establishment in these areas will 
have the advantage of being in sunlight for the generation of 
electrical power (via solar cells) and in a benign thermal environment 
(because the sun is always at grazing incidence); such a location never 
experiences the temperature extremes found on the lunar equator (from 
100+ to -150+ C). The poles of the Moon are inviting ``oases'' in near-
Earth space.

  (7)  Current launch systems, infrastructure, and space hardware can 
        be adapted to this mission and we can be back on the Moon 
        within five to seven years for only a modest increase in 
        existing space budgets.

    America built the mighty Saturn V forty years ago to launch men and 
machines to the Moon in one fell swoop. Indeed, this technical approach 
was so successful, it has dominated the thinking on lunar return for 
decades. One feature of nearly all lunar return architectures of the 
past twenty years is the initial requirement to build or re-build the 
heavy lift launch capability of the Saturn V or its equivalent. Parts 
of the Saturn V were literally hand-made, making it a very expensive 
spacecraft. Development of any new launch vehicle is an enormously 
expensive proposition. What is needed is an architecture that 
accomplishes the goal of lunar return with the least amount of new 
vehicle development possible. Such a plan will allow us to concentrate 
our efforts and energies on the most important aspects of the mission--
learning how to use the Moon's resources to support space flight.
    One possible architecture for lunar return devised by the Office of 
Exploration at the Johnson Space Center has several advantages. First, 
and most importantly, it uses the Space Shuttle (or an unmanned 
derivative of it), augmented by existing expendable boosters, to 
deliver the pieces of the lunar spacecraft to orbit. Thus, from the 
start, we eliminate one of the biggest sources of cost from the 
equation, the requirement to develop a new heavy-lift launch vehicle. 
This plan uses existing expendable launch vehicle (ELV) technology to 
deliver the cargo elements of the lunar return to low Earth orbit--
lander, habitat, and transfer stage. Assembled into a package in Earth 
orbit, these items are then transferred to a point about 4/5 of the way 
to the Moon, the Moon-Earth Lagranian point 1 (L1). The L1 point orbits 
the Earth with the Moon such that it appears ``motionless'' to both 
bodies. Its non-motion relative to Earth and Moon has the advantage of 
allowing us to wait for favorable alignments of these bodies and the 
Space Station in various phases of the mission. Because there is no 
requirement for quick transit, cargo elements can take advantage of 
innovative technologies such as solar electric propulsion and weak 
stability boundaries between Earth, Sun, and Moon to make long, 
spiraling trips out to L1, thus requiring less propellant mass. These 
unmanned cargo spacecraft can take several months to get to their 
destinations. The habitat module can be landed on the Moon by remote 
control, activated, and await the arrival of its occupants from Earth.
    The crew is launched separately on a Shuttle launch and uses a 
chemical stage and a quick transfer trajectory to reach the L1 depot in 
a few days. The crew then transfers to the lunar lander/habitat, 
descends to the surface and conducts the surface mission. As mentioned 
above, the preferred landing site is an area near one of the Moon's 
poles; the south pole is most attractive from the perspective of 
science and operations (see the attached ``Shackleton Crater 
Expedition'' proposal submitted to the Committee by Dr. Stone). The 
goal of our mission is to learn how to mine the resources of the Moon 
as we build up surface infrastructure to permit an ever-larger scale of 
operations. Thus, each mission brings new components to the surface and 
the size and capability of the lunar outpost grows over time. Most 
importantly, the use of lunar-derived propellants means that more than 
80 percent of the spacecraft weight on return to Earth orbit need not 
be brought from Earth. A properly designed mission will return to Earth 
not only with sufficient fuel to take the craft back to the Moon for 
another run, but also to provide a surplus for sale in low Earth orbit. 
It is this act that creates the Earth-Moon economy and demonstrates a 
positive return on investment.
    On return, the L1 depot provides a safe haven for the crew while 
they wait several days for the orbital plane of ISS to align itself 
with the return path of the crew vehicle. Rather than directly entering 
the atmosphere as Apollo did, the crew return vehicle uses aerocapture 
to brake into Earth orbit, rendezvous with the ISS, and thus, it 
becomes available for use in the next lunar mission.
    In addition to its technical advantages, this architecture offers 
important programmatic benefits. It does not require the development of 
a new heavy lift launcher. We conduct our lunar mission from the ISS 
and return to it afterwards, making the Station an essential component 
of humanity's movement into the Solar System. The use of the L1 point 
as a staging depot allows us to wait for proper alignments of the Earth 
and Moon; the energy requirements to go nearly anywhere beyond this 
point are very low. The use of newly developed, low-thrust propulsion 
(i.e., solar-electric) for cargo elements drives new technology 
development. We will acquire new technical innovation as a by-product 
of the program, not as a critical requirement of the architecture.
    The importance of using the Shuttle or Shuttle-derived launch 
vehicles and commercial launch assets in this architecture should not 
be underestimated. Costs in space launch are almost completely 
dominated by the costs of people and infrastructure. To create a new 
launch system requires new infrastructure, new people, new training. 
Such costs can make up significant fractions of the total program. By 
using existing systems, we can concentrate our resources on new 
equipment and technology, focused on the goal of finding, 
characterizing, processing, and using lunar resources as soon as 
possible.

  (8)  A return to the Moon gives the Nation a challenging mission and 
        creates capability for the future, by allowing us to routinely 
        travel at will, with people, throughout the Earth-Moon system.

    Implementation of this objective for our national space program 
would have the result of establishing a robust transportation 
infrastructure, capable of delivering people and machines throughout 
cislunar space. Make no mistake--learning to use the resources of the 
Moon or any other planetary object will be a challenging technical 
task. We must learn to use machines in remote, hostile environments, 
working under difficult conditions with ore bodies of small 
concentration. The unique polar environment of the Moon, with its zones 
of near-permanent illumination and permanent darkness, provides its own 
challenges. But for humanity to have a future, we must learn to use the 
materials available off-planet. We are fortunate that the Moon offers 
us a nearby, ``safe'' laboratory to take our first steps in using space 
resources. Initial blunders in mining tactics or feedstock processing 
are better practiced at a location three days from Earth than from one 
many months away.
    A mission learning to use these lunar resources is scalable in both 
level of effort and the types of commodities to be produced. We begin 
by using the resources that are the easiest to extract. Thus, a logical 
first product is water derived from the lunar polar deposits. Water is 
producible here regardless of the nature of the polar volatiles--ice of 
cometary origin is easily collected and purified, but even if the polar 
materials are composed of molecular hydrogen, this substance can be 
combined with oxygen extracted from rocks and soil (through a variety 
of processes) to make water. Water is easily stored and used as a life-
sustaining substance for people or broken down into its constituent 
hydrogen and oxygen for use of rocket propellant.
    Although we currently possess enough information to plan a lunar 
return now, investment in a few robotic precursors would be greatly 
beneficial. We should map the polar deposits of the Moon from orbit 
using imaging radar to ``see'' the ice in the dark regions. Such 
mapping could establish the details of the ice location and its 
thickness, purity, and physical state. The next step should be to land 
small robotic probes to conduct in place chemical analyses of the 
material. Although we expect water ice to dominate the deposit, 
cometary cores are made up of many different substances, including 
methane, ammonia, and organic molecules, all of which are potentially 
useful resources. We need to inventory these species, determine their 
chemical and isotopic properties, and their physical nature and 
environment. Just as the way for Apollo was paved by such missions as 
Ranger and Surveyor, a set of robotic precursor missions, conducted in 
parallel with the planning of the manned expeditions, can make 
subsequent human missions safer and more productive.
    After the first robotic missions have documented the nature of the 
deposits, focused research efforts would be undertaken to develop the 
machinery needed to be transported to the lunar base as part of the 
manned expedition. There, human-tended processes and principles will be 
established and validated, thus paving the way to commercialization of 
the mining, extraction and production of lunar hydrogen and oxygen.

  (9)  This new mission will create routine access to cislunar space 
        for people and machines, which directly relates to important 
        national economic and strategic goals.

    By learning space survival skills close to home, we create new 
opportunities for exploration, utilization, and wealth creation. Space 
will no longer be a hostile place that we tentatively visit for short 
periods; it becomes instead a permanent part of our world. Achieving 
routine freedom of cislunar space makes America more secure (by 
enabling larger, cheaper, and routinely maintainable assets on orbit) 
and more prosperous (by opening an essentially limitless new frontier.)
    As a nation, we rely on a variety of government assets in cislunar 
space, ranging from weather satellites to GPS systems to a wide variety 
of reconnaissance satellites. In addition, commercial spacecraft 
continue to make up a multi-billion dollar market, providing telephone, 
Internet, radio and video services. America has invested billions in 
this infrastructure. Yet at the moment, we have no way to service, 
repair, refurbish or protect any of these spacecraft. They are 
vulnerable to severe damage or permanent loss. If we lose a satellite, 
it must be replaced. From redesign though fabrication and launch, such 
replacement takes years and involves extraordinary investment in the 
design and fabrication so as to make them as reliable as possible.
    We cannot now access these spacecraft because it is not feasible to 
maintain a man-tended servicing capability in Earth orbit--the costs of 
launching orbital transfer vehicles and propellant would be excessive 
(it costs around $10,000 to launch one pound to low Earth orbit). 
Creating the ability to refuel in orbit, using propellant derived from 
the Moon, would revolutionize the way we view and use our national 
space infrastructure. Satellites could be repaired, rather than 
abandoned. Assets can be protected rather than written off. Very large 
satellite complexes could be built and serviced over long periods, 
creating new capabilities and expanding bandwidth (the new commodity of 
the information society) for a wide variety of purposes. And along the 
way, we will create opportunities and make discoveries.
    A return to the Moon, with the purpose of learning to mine and use 
its resources, thus creates a new paradigm for space operations. Space 
becomes a part of America's industrial world, not an exotic environment 
for arcane studies. Such a mission ties our space program to its 
original roots in making us more secure and more prosperous. But it 
also enables a broader series of scientific and exploratory 
opportunities. If we can create a spacefaring infrastructure that can 
routinely access cislunar space, we have a system that can take us to 
the planets.

  (10)  The infrastructure created by a return to the Moon will allow 
        us to travel to the planets in the future more safely and cost 
        effectively.

    This benefit comes in two forms. First, developing and using lunar 
resources can enable flight throughout the Solar System by permitting 
the fueling the interplanetary craft with materiel already in orbit, 
saving the enormous costs of launch from Earth's surface. Second, the 
processes and procedures that we learn on the Moon are lessons that 
will be applied to all future space operations. To successfully mine 
the Moon, we must learn how to use machines and people in tandem, each 
taking advantage of the other's strengths. The issue isn't ``people or 
robots?'' in space; it's ``how can we best use people and robots in 
space?'' People bring the unique abilities of cognition and experience 
to exploration and discovery; robots possess extraordinary stamina, 
strength, and sensory abilities. We can learn on the Moon how to best 
combine these two complementary skill mixes to maximize our exploratory 
and exploitation abilities.
    Return to the Moon will allow us to regain operational experience 
on another world. The activities on the Moon make future planetary 
missions less risky because we gain this valuable experience in an 
environment close to Earth, yet on a distinct and unique alien world. 
Systems and procedures can be tested, vetted, revised and re-checked. 
Exploring a planet is a difficult task to tackle green; learning to 
live and work on the Moon gives us a chance to crawl before we have to 
walk in planetary exploration and surface operations.
    The establishment of the Earth-Moon economy may be best 
accomplished through an independently organized Federal expedition 
along the lines of the Lewis and Clark expedition. Dr. Stone, who is 
eminently qualified to lead such an expedition, has prepared the 
Shackleton Crater Expedition proposal (attached to this testimony) to 
elaborate upon this alternative organizational strategy. One of the 
fundamental tenets of this approach is to take a business stance on 
cost control with the objective of demonstrating a positive return on 
investment. Such an approach would take advantage of the best that NASA 
and other Federal agencies have to offer, while streamlining the costs 
through a series of hard-nosed business approaches.
    A lunar program has many benefits to society in general. America 
needs a challenging, vigorous space program. Such a program has served 
as an inspiration to the young for the last 50 years and it can still 
serve that function. It must present a mission that inspires and 
enriches. It must relate to important national needs yet push the 
boundaries of the possible. It must serve larger national concerns 
beyond scientific endeavors. A return to the Moon fulfills these goals. 
It is a technical challenge to the Nation. It creates security for 
America by assuring access and control of our assets in cislunar space. 
It creates wealth and new markets by producing commodities of great 
commercial value. It stimulates and inspires the next generation by 
giving them the chance to travel and experience space flight for 
themselves. A return to the Moon is the right destination for America.
    Thank you for your attention.
                               Attachment
Invited Presentation to: International Lunar Conference, Waikoloa, 
        Hawaii, 
        November 16-21, 2003

  Return to the Moon: A New Destination for the American Space Program

         Paul D. Spudis--Applied Physics Laboratory--Laurel, MD

    NASA has no future plans for human exploration of space beyond 
completion of the International Space Station (ISS). Yet human space 
flight makes up the bulk of the agency's budget and is also the source 
of most of the public support the space program retains. Without a new 
follow-on goal, human space flight will stagnate and the entire civil 
space program may be in jeopardy.
    Although many claim that only a manned Mars mission will draw the 
necessary public support, the initiation of such a program is unlikely 
for two reasons: it's too technically challenging for at least another 
decade and will cost more money than Congress can be reasonably 
expected to provide. Although alternative destinations beyond LEO are 
imaginable (e.g., Lagranian points), in the public mind, they differ 
little from being simply ISS at a different location.
    In contrast, the Moon is a small, nearby planet of immense 
intellectual and economic value. The Moon is a natural laboratory for 
planetary science, displaying many of the geological processes that 
operate on all the terrestrial planets. Moreover, the lunar surface 
preserves the early history of the Earth-Moon system, a record erased 
from the dynamic, active surface of the Earth. The Moon is a superb 
platform for observing the universe, with an airless, stable surface, 
long night-times, and a far side permanently shielded from the radio 
static of Earth. By understanding the specifics of the human-machine 
partnership, a new technique of exploration that maximizes the 
strengths and minimizes the weaknesses of using people and robots to 
explore space, we can learn to live and work in space on the Moon. The 
Moon contains abundant resources of material and energy for use in 
space and on the lunar surface. The recent discovery of large amounts 
of hydrogen in the polar regions show that extraction and use of lunar 
resources may be easier than we had originally thought.
    Our return to the Moon can be accomplished using the existing 
infrastructure that supports Shuttle and ISS. Launch of components can 
be done with Shuttle or STS-derived cargo vehicles and Delta-IV-H 
vehicles. Cargo flights can emplace a staging node at Earth-Moon L1, 
from which lunar surface missions would be staged. Human crews can 
depart and return from ISS or another LEO location. Lunar landers would 
descend from the L1 node, delivering both robotic cargo and human 
crews, land, and conduct the surface mission. After return to L1, the 
crew could await re-alignment of the orbital plane of ISS, upon which 
they would return to Earth orbit, using aerocapture. This architecture 
allows us to return to the Moon with minimal development of new 
hardware and technology and use the ISS as a staging platform, making 
that program more directly relevant to future human exploration of 
space.
    The mission of a lunar return should be to learn how to use off-
planet resources. Such a mission is technically challenging, but within 
relatively easy reach. It gives NASA a task that is directly relevant 
to future American national and commercial interests in space, thus 
making it politically palatable. Learning how to identify, 
characterize, extract and use off-planet resources is a task that we 
must learn if humanity is to have a future in space. By providing the 
ability to refuel spacecraft in orbit, this mission will establish 
routine access to cislunar space for both people and machines. Freeing 
us from the cumbersome logistical bonds of Earth, a return to the Moon 
will be the first step towards both true space independence and to the 
planets beyond.

    Senator Brownback. That's excellent. I look forward to the 
discussion.
    Senator Nelson can't stay with us very much longer, so, 
Senator Nelson, questions or comments? They'd be welcome at 
this time.
    Senator Nelson. Thank you, Mr. Chairman.
    I want to say my personal thanks to you for having these 
kind of hearings that will stimulate us. I agree with Senator 
Schmitt's statement about the need for sustained political and 
financial commitment to see the job through and not turn back, 
and that's something that he's had an experience with in the 
Apollo Program when it got cutoff. Continuing on with your 
comments, not underfunding the effort, a huge problem facing 
the Space Shuttle and the Space Station.
    So your argument here is, you'd be able to attract 
investors to go to the Moon for this effort to mine helium-3. 
Now, it's hard to believe, but you made a presentation 10 years 
ago, at my invitation, to the Space Business Roundtable. What 
has changed, in a decade, in your thinking and your refinement 
of us being able to go and help our energy crisis?
    Dr. Schmitt. Two things, Senator. One is, we've made 
tremendous progress in the research at the University of 
Wisconsin-Madison, where we do have sustained fusion going on 
in these small reactors--and they are small; they're about this 
size [indicating]--at what may seem like a very low level, but 
it's more than anybody else has ever done, now at about a 
milliwatt. But the other thing, the second thing, that's 
changed is that we now know that, beginning at about a watt of 
sustained fusion power, there are near-term commercial 
applications, what I started to call ``bridging businesses,'' 
that can help bootstrap your way to the point of where 
investors could ultimately be asked to invest in the lunar 
enterprise.
    I'm not naive enough to think that you can ask--that some 
investor's going to--well, it would be nice if they would--but 
would let me play with their capital for 10 or 15 years before 
they got a return on investment.
    So we've been looking at these interim businesses, these 
bridging businesses. And the first one, at about a watt of 
fusion power, taking several thousand kilowatts to produce, but 
still about a watt of fusion power, is the production of 
positron radio isotypes for PET diagnostic-use, positron-
emitting tomography.
    The second application, as power levels go up, will 
probably be in the detection--using a neutron-producing mix in 
the detection of explosives, and particularly portable landmine 
detection, robotic landmine detection. That would be, of 
course--the customer there would be primarily the government.
    Another potential use, at higher power levels, is the 
transmutation of existing fission waste. The helium-3/helium-3 
reaction or the helium-3/deuterium reaction both produce 
protons as their primary reaction product. And protons have a 
very interesting property, in that if you engineer the exposure 
of isotopes to them, and particularly the radioactive isotypes, 
you can change them to either stable isotopes or to very short-
lived isotopes, so that that problem starts to go away much, 
much faster than it will under any other scenario that's been 
discussed. When you reach a point of breakeven--that is, where 
your power in is equal to or less than the power out, fusion 
power out--then, of course, you have a number of different 
applications for these relatively small portable devices.
    The nice thing about the IEC, the inertial electrostatic 
confinement fusion technology, is that it lends itself to 
modular power sources. In fact, you can even begin to think in 
terms of having a helium-3 powered aircraft at about the size 
of the old KC-135. It looks as if--back of the envelope, now, 
calculations--looks as if, for the fuel load of that size 
airplane, you could have a fusion power plant onboard for 
basically continuous flight.
    Now, I talk to my Air Force friends, and they say, ``Well, 
we don't quite know what we would do with that,'' and I don't 
know if you would use that. But the point is, we're creating a 
technology base that is going to have an increasing number of 
applications. As Dr. Criswell has said, when you start to get 
into these kinds of arenas where you're really stretching 
yourself to do new things, then you just can't anticipate the 
applications that these technologies will have, both direct and 
indirect.
    Senator Nelson. The basic thrust, in addition to these 
refinements that you have just indicated for the record, but 
the basic thrust of your proposal, is as you had presented it a 
decade ago, which is to go to the Moon, mine helium-3, bring 
that back, and let that be the major source of our energy as we 
start to deplete our other sources of energy.
    Dr. Schmitt. That's correct. At least one of the options. 
There are going to be other options. And, in fact, one of the 
things that we've been doing at Wisconsin, also, is trying to 
develop a method--a paradigm, if you will--by which we can 
compare different sources of energy, future sources as well as 
current sources, on an apples-to-apples basis. And that's why 
it's important that what Dr. Criswell has talked about be 
developed, as what we've talked about be developed, to the 
point of where you have enough information and data that you 
can actually make comparisons to see what, in the final 
analysis, your bus bar cost is going to be of the electricity 
coming out at the end. And that is a very important part of 
developing future energy policy, is to see what those bus bar 
costs are actually going to be for various options.
    There are a lot of options for future energy supplies. 
Fission--clearly, advanced fission power systems are a very 
important potential part of that mix. We just have politically 
tied our hands, in this country at least, in using those. Other 
countries haven't been quite so squeamish about the use of 
fission power.
    We have ace-in-the-hole of fossil fuels. Fossil fuels are 
not going to run out for a long time. It's just a question of 
price. Again, putting on my economic-geology hat, you raise the 
price, and I know a lot people who'll go out there and find you 
a lot more fossil fuels. And that's what's going to happen for 
awhile, until we have these alternatives. Because a lot of us, 
geologists included, do not think that it is exactly prudent to 
depend on getting to this factor of five, factor of eight--
whatever number you pick, but it's going to be large--increase 
in energy supply and demand using fossil fuels. It's just, for 
the long-term, probably not a prudent choice, whatever you may 
think about global climate change.
    Senator Nelson. And not only global climate change, but the 
question of the defense interests of the United States----
    Dr. Schmitt. Exactly.
    Senator Nelson.--if we're dependent on a part of the world 
where we're having so much difficulty right now----
    Dr. Schmitt. Exactly. It would----
    Senator Nelson.--because they happen to have the oil 
reserves.
    Dr. Schmitt. Having alternatives to fossil fuels, at least 
to crude oil, and, indeed, to natural gas, increasingly to 
natural gas, would change our foreign-policy picture 
significantly, to put it mildly.
    Senator Nelson. Just to conclude--and thank you for your 
generosity, Mr. Chairman, so that I can get to this caucus 
meeting--but I remember distinctly, 10 years ago you said that 
approximately 45,000 pounds of helium-3 would provide the 
energy sources for the United States for one entire year. Is 
that still an up-to-date calculation?
    Dr. Schmitt. Yes, well, I think probably--I hope what I 
said was about 40 metric tons, which would be about 80---
significantly over 80---do I have that right, Dave?--80,000 
pounds.
    Senator Nelson. So it's cargo bay of two Space Shuttles, 
then----
    Dr. Schmitt. Yes.
    Senator Nelson.--instead of one. I had----
    Dr. Schmitt. Our energy--you're right--ten years ago, the 
numbers were less than what they are today. Our energy 
consumption is going up fairly fast.
    Senator Nelson. That's right, it's been 10 years, hasn't 
it?
    Dr. Schmitt. Yes, I think we were using a figure closer to 
45--you're absolutely right now that I think about it---closer 
to 45,000 pounds in those days. It's increased.
    Senator Nelson. Well, thank you, Mr. Chairman. That's just 
another reason for us to be concerned. It's almost like a time 
warp for me here. The energy demand in America is twice, almost 
twice, as much as what it was 10 years ago, based on the theory 
that you need 80,000 pounds now instead of 45,000 pounds.
    Dr. Schmitt. Yes, it's going up quite fast.
    Senator Nelson. Thank you.
    Dr. Schmitt. We've been at this too long, Senator.
    Senator Nelson. By the way, I was on FOX News Sunday with 
Tony Snow, and I laid out this theory, and he was quite 
intrigued with it. Senator Schmitt, you might want to follow up 
with that.
    Senator Brownback. Thank you very much----
    Senator Nelson. Thank you.
    Senator Brownback.--Astronaut Nelson, along with the 
Senator. It brings a lot of expertise to this that's deeply 
appreciated.
    There's testimony I have from the TransOrbital Group. They 
weren't able to have a witness here today, but I would asked 
unanimous consent that it be placed in the record, and there's 
no objection to doing that.
    [The information referred to follows:]

                                         TransOrbital, Inc.
                                      Alexandria, VA, November 2003

   Opportunities for Commercial Exploration & Utilization of the Moon
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Introduction
    TransOrbital, Inc. is the first and only commercial company to be 
issued permits by the U.S. State Department and NOAA for a commercial 
mission to the moon. In December of 2002 TransOrbital launched from the 
Baikonur Cosmodrome in the Ukraine a lunar orbiter test article which 
is currently in orbit around the earth. In mid to late 2004 
TransOrbital will launch the full scale Trailblazer lunar orbiter, 
which will be the first commercial venture to the moon. It is the 
intention of TransOrbital to show that technology has advanced to the 
point where deep space capabilities that once were only within the 
grasp of governments can now be cost effectively used by commercial 
businesses and that a commercial business case can be made for a 
permanent commercial presence on the moon and beyond. Although not 
specifically dependent on government funding, TransOrbital believes 
that public/private partnerships directed towards the creation of a 
deep space commercial infrastructure can mitigate the costs for U.S. 
Government space programs and the commercialization of deep space. For 
example: if the U.S. Government continued and expanded the recently 
introduced practice of purchasing space related data and services from 
the private sector the U.S. space program could be more cost-effective 
and at the same time assist in the development of the commercial space 
industries to the Moon and beyond.
TransOrbital, Inc.
    TransOrbital, Inc. was incorporated in 1998 to develop the 
infrastructure for exploration and commercial utilization of the Moon 
and, eventually, deep space. The company is based in Alexandria, 
Virginia and is privately held. TransOrbital is currently the leading 
candidate for the first commercial venture to the moon. TransOrbital 
has already launched a test satellite into Earth orbit on December 20, 
2002 and expects to launch a full-scale mission to the moon in mid to 
late 2004. TransOrbital is the only company currently licensed by the 
U.S. State Department and NOAA for a commercial venture to the moon. 
TransOrbital is the only company that has been able to demonstrate a 
business case for going to the moon and for maintaining a permanent 
commercial infrastructure on the moon. TransOrbital is a primary 
example of how small companies can utilize today's technology in 
establishing commercial ventures in deep space. With tax incentives, 
public/private partnerships, legislative support on commercial issues 
and technology transfers/assistance from governmental agencies there is 
ample opportunity for the creation of a innovative new space program 
based upon small-business dynamics, deep space commercialization and 
the associated job creations that can come from such a dynamic and 
forward thinking synergy between the current space programs and future 
commercial space opportunities.
Trailblazer
    In mid- to late-2004, TransOrbital expects to launch the first 
commercial lunar mission: TrailBlazer. The primary purpose of 
TrailBlazer is to acquire high definition imagery of the Moon and other 
objects of interest. Although there is certainly a scientific object to 
this, the primary market for this imagery is commercial: movies, 
advertising, and sponsorship, education, maps and literature. In 
addition to the images taken by the spacecraft itself, we will be 
taking video of the assembly of the spacecraft and of the launch so 
that interested individuals around the world can be involved in a space 
program with web participation. The images will also be of value to 
others planning lunar missions, particularly lunar landers. Additional 
revenues will come from the carriage of private cargo to the lunar 
surface, and two scientific packages/experiments.
    Trailblazer will launch onboard the ISC Kosmotras Dnepr, a Russian 
SS-18 ICBM converted for commercial use. The Dnepr will launch the 
TrailBlazer into a circular Earth orbit at approximately 650 km 
altitude. Almost immediately following separation from the upper stage, 
the solid TLI (Trans-Lunar Injection) kick-motor will fire and propel 
the spacecraft into a 4-day Apollo-style trajectory to the Moon. The 
kick motor and the attached interstage (see Figure 1) will separate 
from the spacecraft and impact the Moon. During the trans-Lunar cruise 
flight, the spacecraft will gather a great deal of imagery of the 
flight, including the ejected booster, the receding Earth, and the 
approaching Moon, in both video and panoramic still views. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Once the spacecraft has reached the moon, it will fire its on-board 
thruster and enter an elliptical, polar orbit around the Moon. Over the 
course of up to ninety days Trailblazer will be able to image the 
entire surface of the Moon and deliver a high-definition atlas of the 
lunar surface. Images are taken over a 1-hour pass while the spacecraft 
is nearest the Moon. While the NASA/BMDO (Ballistic Missile Defense 
Organization) INRL (Naval Research Lab) probe Clementine returned a 
very good set of images of the lunar surface, these were all taken with 
the sun almost directly overhead, while the lunar science community 
would prefer the lighting to be from the side, which shows better 
surface details. TrailBlazer will orbit so that the Sun is about 15 
degrees above the horizon, which should give excellent shadowing of the 
surface features.
    Immediately after entering lunar orbit, TrailBlazer will revisit 
one of the most famous of all of the Apollo scenes: the Earth rising 
majestically over the limb of the Moon--Earthrise (see Figure 2). In 
high-definition video lasting over 10 minutes, this will be nothing 
short of magnificent.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    When the lunar surface atlas images are complete, TrailBlazer's 
orbit will be lowered so that the point of closest approach is less 
than 10 miles Figure 2--Apollo Earth rise above the surface. This will 
allow us to view, with a high degree of detail, specific small targets 
such as the U.S. Surveyor and Apollo and the Russian Lunakhod landing 
sites, as well as other areas that are of special interest. In 
particular, we wish to image several areas that may serve as sites for 
future space landings, including ``Angus Bay'' (Mare Anguis, just off 
of Mare Crisium), and the polar regions. Because of the irregular 
gravity of the Moon-due to its small size and the ``mascons'' (mass 
concentrations) caused by the upwelling of lava into large impact 
craters, any orbit this low requires constant maintenance and 
TrailBlazer's fuel will be exhausted after a few days. Before the fuel 
is totally gone, and the spacecraft goes out of control, it will be 
aimed at an area well away from any site of historical or particular 
geologic value and impacted into the surface. As much as possible, 
video will be returned during the final descent, which should be quite 
spectacular.
    In addition to the cameras, a selection of inert payloads will be 
placed onto TrailBlazer and carried to the lunar surface in its final 
descent. One of these will be a time capsule, consisting of a metal 
disk with micro-etched images on its surface. At our website, given 
below, you can enter one or more pages of words and text to be 
inscribed on this disk for future lunar explorers to find. Although the 
spacecraft will be destroyed by the impact, the disk will be carried 
inside of an especially hardened time capsule that will survive the 
impact of Trailblazer on the Moons surface.
    Three scientific and technical projects round out the Trailblazer 
mission. The spacecraft will be carrying a radiometer constructed by a 
group in Italy in order to study the radio interference levels at a 
proposed site on the lunar far side for a radio-astronomy observatory. 
Also, TransOrbital has been funded by the Foundation for the 
International Non-government Development of Space (FINDS) to study the 
use of Global Positioning Satellite signals for location in near-Earth 
space. Finally, the spacecraft will be testing algorithms associated 
with the Interplanetary Internet protocols developed by NASA and 
private researchers for extending Internet communications into space.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In an important first step, TransOrbital, Inc. launched an inert 
TrailBlazer test article in December of 2002. This launch allowed the 
company to test and verify the integration and communications 
procedures required for using the Dnepr launch vehicle. The test 
article is currently in Earth orbit at an altitude of 650 km. Figure 3 
shows the test article during launch vehicle integration, at the 
Yuzhnoye Design Office in the Ukraine.
Future Missions
    Following TrailBlazer, TransOrbital, Inc. plans a series of lunar 
landers. Like TrailBlazer the Electra landers--depicted in Figure 4--
will perform a variety of functions, including support of scientific 
exploration, gathering imagery for entertainment and artistic purposes, 
and most significantly the establishment of secure data servers on the 
Moon. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Commercial Space Exploration
    None of the work that TransOrbital, or any of the other private 
space concerns, has accomplished would be possible without the 
technological development that NASA has accomplished over the past 30-
some years. We believe that the technology and the market place have 
now developed to the point where some of the work that is currently 
performed exclusively by government space programs can be transitioned 
to the private sector, encouraging efficiency and the creation of new 
jobs and markets. This is similar to the way that the communications 
satellite industry has succeeded in creating a profitable commercial 
enterprise by transitioning NASA technologies and innovations. For 
instance, TransOrbital believes that many activities that currently 
performed by communications satellites could be performed more 
efficiently by relays and data servers located on the moon.
    TransOrbital would like to encourage the U.S. Government to 
continue and expand the recently introduced practice of purchasing 
science data and services from the private sector. Such projects as the 
$50M Earth imaging Scientific Data Purchasing Project recently 
concluded at NASA Stennis Space Center show the value of such 
purchases. Both NOAA (the National Oceanographic and Atmospheric 
Administration) and the Department of Defense have a successful history 
of similar agreements under the Brooks Act and the A-76 processes. This 
practice should be expanded to include space science data, in 
particular lunar data. It would fit well within the recently published 
NASA Announcement of Opportunity (AO 030SS-03) for New Frontier 
missions, including missions leading to the proposed Lunar Aitken-basin 
sample return.
    Although these data purchases are most helpful, opportunities 
should be expanded to give private industry an even greater role in 
space exploration and commercial development of space. Some suggestions 
include:

  <bullet> Encouraging NASA, NOAA, and the DOD to serve as ``private/
        public partners'' for multi-purpose commercial space missions, 
        specifically allowing them to co exist with commercial 
        operations. AO 030SS-03 specifies that NASA can participate in 
        ``missions of opportunity'', but doesn't encourage private/
        public partnerships. Private/public partnerships would assist 
        private companies in the acquisition of funding for multi-
        purpose commercial space missions.

  <bullet> Providing tax incentives for commercial space operations. If 
        successful, commercial space (beyond the Comsat and Earth-
        imaging industries) would provide significant levels of 
        employment and encourage private sector investment. Ultimately 
        the creation of jobs and investment capital would generate 
        significant business and individual tax revenues while at the 
        same time reducing the cost of U.S. government expenditures on 
        space related programs. Historically tax incentives have been 
        extremely effective in the creation of new industry.

  <bullet> Having NASA provide data and technical support services, 
        either under CRDA (Cooperative Research and Development 
        Agreement) or through open forum commercial exchanges. NASA has 
        unparalleled analysis capabilities, and much is available 
        commercially through technology transfer. Most small businesses 
        would not have the capital to create the kind of infrastructure 
        and database support available through NASA. However if NASA 
        could provide support services, information, technology, ground 
        station support etc. along with preferential contract pricing, 
        There is an opportunity for public/private commercial 
        agreements that can assist both NASA and small commercial 
        enterprises in the development of a deep space commercial 
        infrastructure.

  <bullet> Recognition that, especially for small commercial companies, 
        international cooperation is essential for providing a cost-
        competitive product. For instance, presently the only 
        economically feasible launch provider for TrailBlazer is the 
        Russian Dnepr. TransOrbital has put significant time and effort 
        into ensuring that our use of the Dnepr satisfies all State 
        Department ITAR control requirements. Unfortunately despite 
        this effort regulatory and institutional barriers make it 
        almost impossible to launch any NASA or other U.S. Government 
        payload on the Dnepr, or any other non-U.S. launch vehicle. 
        While there is a history of NASA and U.S. Government agency 
        launches from Russian launch vehicles there is currently no 
        defined protocol for the use of foreign based launch vehicles 
        that could be used for public/private partnership commercial 
        space launches. While it is appropriate to consider all ITAR 
        concerns the commercial space industry is very much a worldwide 
        business. Expediting the ability of American small space 
        related companies to participate in the acquisition of services 
        on a worldwide basis would enhance the growth potential of 
        American small commercial deep space companies.

  <bullet> Opening up the International Space Station as soon as 
        possible to true commercial operations on a rental basis. 
        Currently, there are significant regulatory and reporting 
        blocks to use of ISS for commercial purposes which, 
        technically, are not required. Lunar exploration would be 
        greatly enhanced by being able to use ISS as a staging area for 
        assembly and retrieval of spacecraft.

  <bullet> Passing legislation to encourage the commercial exploration 
        and utilization of space-based resources. Right now, there is 
        very little legislative backing for commercial operations 
        beyond communications and remote-sensing spacecraft. While 
        TrailBlazer will demonstrate that commercial lunar operations 
        are viable, companies may be reluctant to take chances that 
        their base of operations may be declared ``a common heritage of 
        mankind'' and taken from them. Territorial imperatives is an 
        issue which will become more and more requisite of definition 
        in deep space as commercial and governmental entities establish 
        positions on the moon and elsewhere. The issue of property 
        rights, land-use, right of access, right of-way, and commercial 
        exploitation are all issues that will need definition and 
        structural protocols in the very near future.

  <bullet> Recognize the necessity for low-cost launch opportunities 
        within the Continental United States. TransOrbital has 
        contracted for low-cost Russian launch vehicles which are 
        converted ICBM missiles that would otherwise be destroyed under 
        the START treaties. The United States has similar missiles 
        which can be converted for commercial use as well but they have 
        not been made available to the general commercial marketplace. 
        There are currently severe restrictions as to how U.S. ICBMs 
        can be utilized in commercial space programs. Removing these 
        restrictions and converting existing U.S. missiles would 
        provide an inventory of low-cost launch vehicles for small 
        commercial companies similar to what is currently being done by 
        the Russian commercial launch companies. Utilizing the U.S. 
        missiles for the creation of new American industries and to 
        help mitigate the cost of U.S. space programs would be an 
        excellent opportunity for commercial growth in the United 
        States and the commercialization of space.
Conclusion
    Advances in technology and the availability of a wide variety of 
goods and services--many originating in NASA and DOD programs mean that 
space exploration and the utilization of space-based resources are now 
within the reach of commercial companies. Communications and remote-
sensing spacecraft have proven that the utilization of near Earth space 
is commercially viable. TransOrbital, Inc.'s TrailBlazer spacecraft 
will demonstrate the viability of lunar exploration. As has been 
demonstrated in initial efforts by NOAA and the DOD, the purchase of 
scientific data and services from commercial suppliers is a cost-
effective practice. Continuing and expanding this practice to include 
lunar exploration and other deep-space commercial development/research 
will be an efficient way to gather good scientific data and to create a 
permanent commercial infrastructure in space to support both private 
and public enterprises. Cost-sharing between the public and private 
sectors offers an opportunity for the commercialization of a deep space 
infrastructure while at the same time offering cost efficiencies for 
government based space programs.

    Senator Brownback. Tutor me, gentlemen. I've got some 
questions, and I want to understand some items. I want to start 
with Dr. Spudis, if I could.
    You say we can go back to the Moon, with current 
technology, using even the Space Shuttle or its technology to 
get back, and can do it within a period of five to 7 years. Is 
that right?
    Dr. Spudis. That's my belief, yes, sir.
    Senator Brownback. Now, what do you base that upon?
    Dr. Spudis. Well, fundamentally there's no magic involved 
here. We know what's involved in going back to the Moon. It 
involves building vehicles that can transfer between orbits, 
from low-Earth orbit to lunar-transfer orbit and then down to 
the lunar surface. It involves rocket technology that's fairly 
much off the shelf. It's merely a matter of getting the mass 
and the engines and the propellent in the right place at the 
right time.
    The reason I emphasize using existing facilities is because 
they are adequate. We have a lot of money invested in Shuttle 
and Shuttle infrastructure, and there's no reason why that 
infrastructure cannot be used to build the launch systems that 
we want.
    Senator Brownback. On a specific point, can we use the 
Space Shuttle craft to go back to the Moon?
    Dr. Spudis. In part, yes, sir. You can use the Shuttle to 
launch components, but also you can use the existing expendable 
launch vehicles to do it. But, more than that, you can take 
Shuttle parts and build an unmanned heavy-lift vehicle with 
them. There was a concept NASA had a few years ago called 
Shuttle C, which basically took used Shuttle main engines and 
the external tank and the solid-rocket stack, and basically 
attach it to a big cargo carrier, and that can put between 60 
and 70 metric tons into low-Earth orbit. So, in fact, we have a 
heavy-lift vehicle right now.
    Senator Brownback. Can you use the Shuttle spacecraft 
itself to take humans back to the Moon?
    Dr. Spudis. You couldn't take the whole--it wouldn't be 
cost-effective or smart to fly the whole Shuttle to the Moon, 
because a lot of the mass, the airframe, of the Shuttle is 
specifically related to the reentry--the wings and the thermal 
protection system. What you would do is, you would use the 
Shuttle to ferry the crews back and forth to low-Earth orbit, 
just as they do now with Space Station. You would build a 
separate vehicle, based on Shuttle and Station-derived 
hardware, to go to the Moon.
    Senator Brownback. From low-Earth orbit.
    Dr. Spudis. From low-Earth orbit, yes.
    Senator Brownback. Do you think that's a better route to go 
than just go back to the Apollo type of design where you're 
launching from the Earth and heading to the Moon?
    Dr. Spudis. I do, because the Apollo design was a 
magnificent machine, but it was specifically designed as a one-
off. Each mission was a set of equipment that was designed to 
transport one crew to the surface and back, and then that 
equipment was thrown away. If you go look in the Air and Space 
Museum down the street, there's the Apollo 11 command module. 
That's the only thing that came back from the 360-foot-high 
Apollo 5 stack, Saturn 5 stack. And, what's more, Saturn 5 
lifted 100 metric tons to low-Earth orbit. The problem was, 
it's a very expensive vehicle, on a recurring basis, because 
parts of it were literally handmade. And what we need to do is 
to use equipment that we can reuse. That's where we're really 
going to make spaceflight more routine and more common, is to 
reuse equipment and not throw it away after one use.
    Senator Brownback. But the Shuttle is enormously expensive.
    Dr. Spudis. It is. And we're spending that money, whether 
the Shuttle is flying or not. The Shuttle is expensive right 
now, even though it's sitting on the ground down at the Cape. 
And what I'm trying to look at is a way to use the existing 
infrastructure in which there's a very large capital investment 
down at Cape Kennedy, to basically build rockets and a 
transport system that will allow us to do this.
    Now, there are other ways to approach this. You can imagine 
an architecture--in the attachment you have, Dr. Stone's 
``Shackelton Expedition,'' he looks at using commercial launch 
vehicles, and concludes that you can do this all with 
expendable launch vehicles.
    So the reason you use heavy lift is to get big chunks in 
orbit at once. There's no reason why you can't assemble it in 
smaller pieces brought up by existing smaller launch vehicles.
    Senator Brownback. You mentioned about a Lewis and Clark 
type of mission, and several of you mentioned getting the 
private sector involved. And I note some people in the audience 
that have talked about getting the private sector much more 
involved. How do we do that? Should we be contracting with 
people in the private sector, saying, ``We want you to do the 
Moon trip. What do you bid it at?'' And doing this on a private 
sector bidding-it-out basis and run by the private sector?
    Dr. Spudis. Well, there are a lot of possibilities. I've 
always thought that the purpose of Federal involvement in space 
exploration is to do the risky--high-risk development things 
that private industry won't invest in. But once that's done, 
once the technology is demonstrated, you should turn it over to 
the private-sector activity.
    To give you an example, the commercial launch industry in 
this country puts into geosynchronous orbit a mass equivalent 
to an Apollo launch every year. Now, that industry did not 
exist 40 years ago, and largely it was created on the 
technology base that came from Apollo. So, in that sense, you 
always have the private sector following governmental activity.
    But there are other more innovative ways you can look at 
it. One thing you might consider is to establish a joint 
program office that would have direct authority from the 
executive to implement a specific plan to return to the Moon. 
That would involve various Federal agencies, such as NASA, 
Defense Department, Department of Energy, and then that could 
also partner with private-sector entities, as well. So there 
are a lot of innovative ways to look at managing this, more 
than just making this a NASA program.
    Senator Brownback. Yes, that's an interesting point.
    Dr. Spudis, you mentioned that Europe, India, Japan, and 
China all have robotic missions to the Moon in some stage right 
now?
    Dr. Spudis. That's correct. Right now, the Europeans are 
actually en route to the Moon with a mission called SMART-1 
that was launched about a month ago, and it's using solar-
electric propulsion, so it's going to take about 18 months to 
get to the Moon. It uses a very low-thrust, high-ISP engine 
that loops around the Earth multiple times and gradually 
reaches the Moon.
    Japan has two lunar missions in the works that I am aware 
of. One is actually a set of two penetrators that will hard 
land into the Moon and search for seismic evidence for a lunar 
core. The other one is a very large spacecraft, a two-ton 
spacecraft, that will do remote sensing from orbit.
    The Indians have announced that they are planning to send a 
lunar obiter in 2008. And I have read reports that the Chinese 
are not only planning to send orbiters and landers, but they 
are also looking at architectures designed to send people to 
the Moon, as well.
    Senator Brownback. In what timeframe, on the Chinese?
    Dr. Spudis. It's very vague, but my understanding, they 
talk about robotic missions within the next few years, and they 
certainly talk about human missions within a decade.
    Senator Brownback. Dr. Angel, the telescopes on the Moon 
that you talked about, where does this rank in the astronomy 
community as far as their depth of support and interest in 
putting telescopes on the Moon? Is this their top priority 
item? Is this one of those, ``Well, if you've got the money, it 
would be nice to do''? Where does this rank in their interest 
for exploration and research purposes?
    Dr. Angel. I think there's a lot of enthusiasm for building 
telescopes and looking beyond what we're now engaged in, which 
is the James Webb Telescope. I would say that the idea of going 
to the Moon is a new one, and I think the thinking up to now 
has been more to go to the same remote places that we put 
telescopes that don't need servicing.
    So I think the astronomy community--I'm a bit ahead of them 
right--is looking hard at what the Moon would do----
    Senator Brownback. Meaning they haven't been looking at it, 
because they just didn't see this as a feasible thing that we 
would even consider doing?
    Dr. Angel. I think there's always a second-guessing about 
what you think NASA is going to be interested in supporting. 
And it's certainly true, for the last decade, that NASA has not 
encouraged thinking about the Moon as a site for astronomy or 
that kind of development.
    Dr. Schmitt. Put very kindly.
    [Laughter.]
    Dr. Angel. But, I've tried to take a problem, have an issue 
and say, well, what's it really like there? And I think that 
the hurdle has been that telescopes on the Moon do have to work 
in the presence of gravity, and if you're fighting that, that 
makes it harder. So, other things being equal, if you can 
figure out how to get the manned support for a big telescope 
somewhere else, maybe you would prefer that. If there's a 
strong interest in a base on the Moon--and I subscribe to a lot 
of the views here--then if that were there and it were at the 
south pole, then I think the astronomical potential there is 
very high.
    Senator Brownback. And the support from the community would 
be very high at that point in time if this is seen as a real 
possibility?
    Dr. Angel. I think the nervousness in the community is to 
be the tail on a very big dog. So if you put all your hopes 
into placing a big telescope on the Moon, you join an enormous 
enterprise over which you have very little influence.
    Again, it's back to this issue of there being a commitment 
to sustain this kind of effort? Because there are less 
ambitious ways that you could get at least some of your 
astronomy done and feel that it was more in your control.
    So I think if one felt that this was really going to 
happen, there was really going to be a base, then I think there 
would be enormous enthusiasm to do things there. But if you 
feel you're going to go down a few years down this road and 
then it's abandoned, and you've basically set back your effort 
that you might have gone in another direction.
    Senator Brownback. By what sort of factor would the view of 
the Hubble Space Telescope improve, if we were to place 
telescopes on the Moon? Would we be able to get 20 percent 
better reach, and be able to get 30 percent better definition, 
are we talking in multiples here, if we have telescopes 
properly placed on the Moon?
    Dr. Angel. Well, I had looked at the sensitivity of the 
James Webb Telescope, which is a six meter telescope that we're 
now engaged in. If we put a 20 meter telescope on the south 
pole of the Moon, and there are two things that let you see 
deeper and further and fainter. One is a bigger aperture, and 
that makes a sharper image, collects more light, and the other 
is just to wait for an enormously long time, which is what--the 
Hubble, in looking at its very deep views of the universe, 
collected light for a couple of weeks on the same patch of sky. 
If you're at the south pole of the Moon, you can look 24 hours 
a day for years at the same patch, and if you do that, you can 
see even a hundred times fainter than the Webb Telescope. So 
it's a very specialized job, right, with just drilling into the 
universe in one patch, go as deep as you can. That's what it 
would take to see these first stars.
    So this is not just a small increment on what--all the 
plans at the moment, which go as far as the Webb Telescope. We 
could go a lot deeper if we made this observatory and used it 
for a long time.
    Senator Brownback. Whoever wants to take this question, I 
would appreciate you jumping in, or maybe a couple of you 
would. There's a lot of discussion about going to Mars. Dr. 
Spudis, you addressed a portion of that in your testimony. And 
I think there are some thinking that you go to the Moon to get 
to Mars. Address this issue for me. Are these exclusive 
matters--I mean, given likely budgetary constraints--that you 
pick either the Moon or Mars? Or is the Moon essential to 
making it to Mars and learning? Give me your thoughts about how 
this ties in with a Mars mission.
    Dr. Spudis. Well, the way I see it is that what you want to 
do on the Moon is to learn how to use off-planet resources. And 
if you can do that, you've not only opened up the way to Mars, 
you've opened up the way to anywhere else you want to go. 
Effectively, by making propellent on the Moon and making the 
commodities you need to support human life, you've basically 
created the ability to move throughout the Earth-Moon system, 
throughout cislunar space. And if you can do that, certainly 
you can--that propellent can be used to send future missions to 
Mars. So it's not really a diversion, it's more--I consider it 
more of an enabling technology.
    Right now, to go to Mars would require an amazing amount of 
money, probably an amount of investment that this country is 
not willing to put up. But, more than that, I think that you 
need to gather more experience in space. You need to gather 
experience in planetary surface operations, in using resources, 
and in actually building an infrastructure. So that's the value 
of going to the Moon, relative to a Mars mission. If you go to 
the Moon and do this, you will automatically make it easier to 
go to Mars in the future.
    Dr. Schmitt. Mr. Chairman----
    Senator Brownback. Senator?
    Dr. Schmitt.--it's not an accident that our umbrella little 
corporate entity is called Interlune-Intermars, because we 
think that the cheapest and probably the fastest way to get 
human beings to Mars and begin the exploration and settlement 
of that planet is by way of the Moon, through commercial 
development of the technology base that's necessary to go to 
the Moon and to extract its resources. And the reason I say 
that is that if you can get investors to bear the capital 
burden of that development, then the price to the government or 
other entity that decides that it wants to fund a mission to 
Mars is significantly less. In addition, the development of 
this particular type of fusion technology has a very, very 
clear application to interplanetary propulsion systems through 
which you can accelerate and decelerate continuously and change 
the dynamics of actually performing Mars exploration.
    But in contrast to what Dr. Spudis has said, we feel if 
you're going to depend primarily on a commercial endeavor, then 
you're going to have to have a rocket system that, through mass 
production--or through long-term production contracts, better 
put--reaches a cost, a payload cost, to lunar injection of 
about $2,000 a kilogram or less. We've done some business 
modeling studies at the University of Wisconsin, the business 
school there, and right now it looks like you've got to get 
down into that range. We don't think Shuttle-derived hardware 
can do that. We don't think the government can do that. It's 
going to take, I think, the initiative and the constraints of a 
commercial enterprise to drive those costs to that level.
    We would look at an up-rated Saturn 5, call it a Saturn 6, 
as sort of a baseline system to evaluate and then to compare 
other systems to, because it was a very successful technology, 
and it's a technology that would benefit from long-term 
production contracts, as well as from modernized manufacturing 
and design systems.
    With respect to the role the government could play in all 
of this to facilitate it and to make investors more 
comfortable, we have more recently been looking at--encouraging 
the government, NASA maybe in particular, to take on, in this 
field, an NACA-like responsibility. That's the National 
Advisory Committee on Aeronautics that was the precursor to 
NASA and, during the last century, had so much to do with 
enabling the development of the technologies, it ultimately 
became the foundations of the commercial aircraft industry.
    That model is a very good model for certain things, and we 
think it could be utilized as a way to attack and accelerate 
technology development that would be necessary for commercial 
enterprises in space across the board, not just those 
enterprises going to the Moon.
    But as a partnership with government, we think that would 
be a very, very difficult managerial nut to crack, frankly. And 
either you need NASA or a new agency to take this on, or you 
need to be primarily looking at investors to take it on. I 
don't think there's a good middle ground. We've looked at that, 
evaluated it, and it looks like a very, very tough row to hoe.
    Senator Brownback. Dr. Spudis suggested that one of the 
routes might be an interagency operation. I think, if I get 
your testimony correct, that it might be done by a group, 
because you have military objectives, exploration objectives, 
research, commercial objectives, and you would be going across 
a number of different agencies to do this project.
    Dr. Schmitt. I think there's a lot of history, Mr. 
Chairman, to say that those kind of endeavors don't work very 
well. They're very, very hard to manage. And it's probably 
better to see that there is a central focus, either within the 
private sector or within the government, for the development of 
the capability, and then that capability is utilized 
independently by other entities.
    As a matter of fact, if you go back in history, President 
Eisenhower debated with himself whether or not there would be a 
NASA or whether missile development would be spread--
concentrated missile development within one agency, or it would 
be spread out between several agencies. And he decided on the 
latter. And I think it has been to the benefit--although not 
without its problems, but to the gross benefit, the general 
benefit--of the development of rocket technologies for the Air 
Force, the Navy, and the Army were left with separate 
responsibilities in the development of rocket systems, because 
they had very special applications of those rocket systems. If 
it had all been concentrated in one agency in the Department of 
Defense, then I think there probably never would have been a 
NASA, for one thing.
    Senator Brownback. Dr. Criswell, did you have anything else 
that you would like to add to any of your testimony or any of 
these questions?
    Dr. Criswell. Yes. The statement is often made in the 
literature that we have major sources of fossil fuel that can 
last for centuries. And that is true, but what you usually 
don't hear is the statement, the flip side of that statement, 
that the majority of people in the world will stay dirt-poor. 
Right now, a billion people are rich with energy; the other 
five are not. In 2050, a billion people will be rich with 
energy--probably not as many in this country as there are now, 
or in OECD--but nine billion people will be poor.
    I've identified 33 options that could bring the world up to 
a minimum level of energy use, about two kilowatts electric per 
person by 2050, that can get the cost low enough that the five 
to nine billion people could afford it, that would be clean, 
that would be independent of the biosphere, that used 
technologies that you can understand now. And I've only 
identified one, and that's this lunar option.
    It was an unusual career path that I took out of Rice, 
where I did my Ph.D., back when Apollo was just starting. And 
for the first 7 years at the Lunar Science Institute, I managed 
the first 3,500 proposals submitted to NASA for lunar science. 
That was full peer-review activity, and a lot of scientists 
there depended on the data and the samples brought back by Dr. 
Schmitt. We don't usually realize that the U.S. and the world 
has invested over a billion dollars already in understanding 
what we did on the Moon, the samples, and the environment since 
then.
    We, as a Nation, have expended almost $650 billion on our 
civilian space program. World technology relevant to the Lunar 
Solar Power system is basically electronics, an that's been the 
source, major source, of wealth for this nation, if not for the 
world, for the past 30 years.
    We have all the pieces to do this. We could get through the 
R&D phase for about .08 percent per year, for the next 6 years, 
of our gross product. We could get through the full 
implementation phase in 35 years for a quarter of a percent of 
our present gross national product. That could lead to a 
factor-of-ten increase in gross world product. It could remove 
from Earth the need to fight wars over scarce energy resources, 
and to have independent control of those energy sources so that 
they do not pollute the biosphere.
    Essentially, by establishing the production of new wealth 
on the Moon through commodities, making of commodities to do 
the things I'm talking about, you change the future of the 
human race.
    Senator Brownback. A powerful statement, and very 
interesting.
    Gentlemen, thank you very much for joining me here today 
and building this case up for returning to the Moon. I think 
we're at an exciting point. We're at a key moment where things 
are being reviewed for real possibility and sustainability. I'm 
very aware of the stop-and-start nature that we've been going 
over the past two decades in space programs, and we can't 
afford to do that again. And this has to be a vision that's 
sustainable, that's real, that has buy-in from the American 
public, that is sufficient to lift the soul. And so that's why 
we're spending this time. Let's chew through this a step at a 
time and get to what really is something that can work.
    Appreciate very much your expertise and your sharing of it. 
The hearing's adjourned.
    [Whereupon, at 3:40 p.m., the hearing was adjourned.]

                                  <all>
</pre></body></html>
